<html>
<title> - STRENGTHENING AMERICA'S COMPETITIVENESS THROUGH COMMON ACADEMIC STANDARDS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
    STRENGTHENING AMERICA'S COMPETITIVENESS THROUGH COMMON ACADEMIC 
                               STANDARDS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 29, 2009

                               __________

                           Serial No. 111-17

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-732 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 

















                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director






















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 29, 2009...................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Additional submissions:
            Weast, Dr. Jerry D., Superintendent of Schools, 
              Montgomery County (Maryland) Public Schools, 
              statement of.......................................    44
            Article, from the Washington Post, December, 18, 
              2008, ``County Stays Strong in AP Scores Despite 
              Increased Participation''..........................    47
            Publication, ``Benchmarking for Success: Ensuring 
              U.S. Students Receive World Class Education,'' by 
              the National Governors Association, Internet 
              address to.........................................    48

Statement of Witnesses:
    Hunt, James B., Jr., chairman, James B. Hunt, Jr. Institute 
      for Educational Leadership and Policy Foundation Board, 
      former Governor of North Carolina..........................     7
        Prepared statement of....................................     9
    James, Dr. Ken, Commissioner of Education, Arkansas 
      Department of Education....................................    12
        Prepared statement of....................................    15
    Jones, Greg, president & CEO, State Farm General Insurance 
      (retired); chairman, California Business for Education 
      Excellence; chairman, California Business Roundtable.......    25
        Prepared statement of....................................    26
    Levin, David, co-founder, KIPP Schools.......................    21
        Prepared statement of....................................    23
    Weingarten, Randi, president, American Federation of Teachers    17
        Prepared statement of....................................    18


                        STRENGTHENING AMERICA'S
                        COMPETITIVENESS THROUGH
                       COMMON ACADEMIC STANDARDS

                              ----------                              


                       Wednesday, April 29, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Andrews, Woolsey, 
McCarthy, Tierney, Kucinich, Bishop of New York, Altmire, Hare, 
Courtney, Shea-Porter, Polis, Tonko, Titus, McKeon, Petri, 
Castle, Souder, Ehlers, and Biggert.
    Staff present: Tylease Alli, Hearing Clerk; Catherine 
Brown, Senior Education Policy Advisor; Alice Cain, Senior 
Education Policy Advisor (K-12); Fran-Victoria Cox, Staff 
Attorney; Adrienne Dunbar, Education Policy Advisor; Curtis 
Ellis, Legislative Fellow, Education; Denise Forte, Director of 
Education Policy; Lloyd Horwich, Policy Advisor, Subcommittee 
on Early Childhood, Elementary and Secretary Education; Fred 
Jones, Staff Assistant, Education; Jessica Kahanek, Press 
Assistant; Alex Nock, Deputy Staff Director; Joe Novotny, Chief 
Clerk; Rachel Racusen, Communications Director; Melissa 
Salmanowitz, Press Secretary; Margaret Young, Staff Assistant, 
Education; Mark Zuckerman, Staff Director; Stephanie Arras, 
Minority Legislative Assistant; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Andrew Blasko, 
Minority Speech Writer and Communications Advisor; Robert 
Borden, Minority General Counsel; Cameron Coursen, Minority 
Assistant Communications Director; Susan Ross, Minority 
Director of Education and Human Resources Policy; Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel; 
and Sally Stroup, Minority Staff Director.
    Chairman Miller [presiding]. The committee will come to 
order.
    We are going to try to move things right along, here, in 
the beginning, because we have a vote on the conference report 
on the budget--that will come sooner than later.
    Good morning to everyone.
    And welcome to our witnesses, and to the audience.
    Today, this committee will examine the great momentum that 
is building for improving our schools and its competitiveness 
through internationally benchmarked common academic standards.
    Our nation faces unprecedented challenges that threaten our 
competitiveness. We face an achievement gap within our schools, 
but we also face an achievement gap between the U.S. and other 
countries whose educational outcomes are surging, while ours 
seem to be stagnating.
    President Obama and Secretary Duncan recognize that our 
economy's fate is directly linked to addressing both 
achievement gaps. They know we won't be able to build a world-
class education system that our economy needs, and our children 
deserve, unless all students are taught to rigorous standards 
that prepare them for college and good jobs.
    We all know the statistics; we have fallen to 21st in math 
achievement, 25th in science, 24th in problem solving. We used 
to be number one in college completion, and now we are 18th.
    Our 15-year-olds rank a full year behind their peers in 
high-performing countries in math, and even our best math 
students rank behind 22 other countries.
    We must reverse this trend. I am pleased to finally see 
major momentum building behind the effort for common state 
standards. There is a shared recognition that a patchwork of 
standards in place today is holding us back, not lifting us up. 
It is our students and, ultimately, our economy, that will pay 
the price.
    So far, a core of forward-thinking states have been leading 
the way toward stronger common standards. I want to commend the 
Alliance for Excellent Education, the National Governor's 
Association, the Council of Chief State School Officers, and 
all of their partners in this effort, for their leadership. 
They deserve great credit on how they have already helped move 
the discussion forward.
    Let me be clear: I want this committee and the Congress to 
do whatever it can to support this state-led, bipartisan 
effort. That is why we are here today; to learn more about this 
work, and to hear from you all about how the federal government 
can best lend its support.
    We forged a good start by making historic investments in 
education in the American Recovery and Reinvestment Act. We 
created an unprecedented $5 billion Race to the Top fund, that 
will allow Secretary Duncan to encourage states to innovate. 
This includes improving standards and assessments so they are 
aligned with career and college-readiness.
    This fund will lay a foundation for significant changes we 
will need to make to improve our schools, make sure students 
graduate with the skills that they need, and cultivate a 
workforce that can compete globally.
    The goal of the No Child Left Behind Act is to make sure 
that every child receives an opportunity for an excellent 
public education, based upon high standards. And while some 
states have done a good job insisting on higher standards, 
others have set a bar far too low.
    The quality of a child's education should not be left to 
the luck of the draw. One of the most important things we can 
do to fulfill the law's promise is to develop internationally 
benchmarked standards that will prepare all students for the 
rigors of college and a career.
    There is already a great deal of consensus among high-
performing nations about what our students need to know to 
succeed. In the highest-performing countries, standards cover a 
smaller number of topics in much greater depth.
    In the U.S., state standards typically cover a larger 
number of topics in each grade level, and schools end up with a 
curriculum that, as they say, is ``a mile wide and inch deep.'' 
This means that it is difficult for teachers to teach it for--
students can't learn it and parents can't reinforce it.
    As the NAEP results shows us year after year, the 
unintended consequences of a system that varies vastly from 
state to state is, rather than striving for excellence, states 
are camouflaging poor performance.
    The result of it is a generation of students without 
complex skills and knowledge needed to succeed in the jobs of 
the future.
    Today, we will hear from witnesses about the state-led 
effort underway to develop a common core of fewer, clearer, 
higher standards.
    This hearing will focus on what we need to do to raise our 
standards so that students in every state have the access to 
world-class education system that launches the next era of 
American competitiveness.
    I look forward to hearing from our witnesses.
    And, now, I would like to recognize Congressman McKeon, the 
senior Republican on our committee.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Today our Committee will examine the great momentum that is 
building for improving our schools and our competitiveness though 
internationally-benchmarked common academic standards.
    Our nation faces unprecedented challenges that threaten our 
competitiveness. We face an achievement gap within our schools but we 
also face an achievement gap between the U.S. and other countries whose 
educational outcomes are surging while ours are stagnating.
    President Obama and Secretary Duncan recognize that our economy's 
fate is directly linked to addressing both achievement gaps.
    They know we won't be able to build the world-class education 
system our economy needs and our children deserve unless all students 
are taught to rigorous standards that prepare them for college and good 
jobs.
    We all know the statistics--we've fallen to 21st in math 
achievement, 25th in science, and 24th in problem solving. We used to 
be number one in college completion. Now we are 18th.
    We used to produce the most PhD candidates in the world. Now, not 
one but, two Chinese universities have overtaken us.
    Our 15 year-olds rank a full year behind their peers in higher-
performing countries in math. Even our best math students rank behind 
22 other countries.
    We must reverse this trend. I'm pleased to finally see major 
momentum behind the effort for common state standards. There is a 
shared recognition that the patchwork of So far, a core of forward-
thinking states has been leading the way toward stronger, common 
standards.
    I want to commend the Alliance for Excellent Education, the 
National Governor's Association, the Council of Chief State School 
Officers and all of their partners in this effort for their leadership. 
They deserve great credit for how they've already helped move the 
needle.
    Let me be clear: I want this committee, and the Congress, to do 
whatever we can to support this state-led, bipartisan effort. That's 
why we're here today--to learn more about this work and to hear from 
you all about how the federal government can best support it.
    We forged a good start by making historic investments in education 
in the American Recovery and Reinvestment Act.
    We created an unprecedented, $5 billion Race to the Top fund that 
will allow Secretary Duncan to encourage states to innovate. This 
includes improving standards and assessments so they are aligned with 
career and college-readiness.
    This fund will lay the foundation for the significant changes we'll 
need to make to truly improve our schools, make sure students graduate 
with the skills they need, and cultivate a workforce that can compete 
globally.
    For years we've talked about how to close the achievement gap among 
students domestically. But that isn't enough. We've got to focus on 
closing the international achievement gap too.
    The goal of the No Child Left Behind Act is to make sure every 
child receives an excellent public education based on high standards.
    While some states have done a good job insisting on higher 
standards, others have set the bar far too low.
    The quality of a child's education shouldn't be left to the luck of 
the draw.
    One of the most important things we can do to fulfill the law's 
promise is to develop internationally-benchmarked standards that will 
prepare all students for the rigors of a college or a career.
    There is already a great deal of consensus among high performing 
nations about what our students need to know to succeed. In the highest 
performing countries, standards cover a smaller number of topics in 
much greater depth.
    In the U.S., state standards typically cover a larger number of 
topics in each grade level. Schools end up with a curriculum that, as 
they say, is ``a mile wide and inch deep.''
    This means teachers can't teach it, students can't learn it, and 
parents can't reinforce it.
    As NAEP shows us year after year, the unintended consequences of a 
system that varies vastly from state to state is rather than striving 
for excellence, states are camouflaging poor performance.
    The result is a generation of students without the complex skills 
and knowledge needed to succeed in the jobs of the future.
    This is why we've brought you all here today. We'll hear from 
witnesses about the state-led effort underway to develop a common core 
of fewer, clearer and higher standards.
    This hearing will focus on what we need to do to raise our 
standards so that students in every state, from Mississippi to 
California to Tennessee, have access to a world-class education system 
that launches the next great era of American competitiveness.
    I look forward to hearing from the witnesses.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller, and good morning.
    Some people in Washington seem to think that the federal 
government created the states to administer its far-reaching 
programs and policies, but that is not the case. History tells 
us that the states created the federal government.
    Similarly, policy-reform movements have a tendency to 
spring forth at the state and local level, where elected 
officials and community leaders are closest to the problems we 
are trying to solve.
    And when it comes to the problem we are trying to solve 
today--namely, how to ensure academic standards that will keep 
American students competitive--it would be instructive to look 
to the states for leadership.
    There is no reason why the states can't work together to 
create their own common academic standards, which should be 
high, so we can see real improvement among our students. In 
fact, the states have already begun.
    About 2 weeks ago, three organizations hosted a meeting in 
Chicago. The organizations were the National Governor's 
Association, the Council for Chief State School Officers, and 
Achieve, Incorporated, a non-profit group. Also attending this 
meeting were the representatives of 37 states, the District of 
Columbia, and Puerto Rico.
    At this meeting, the state and local representatives 
offered their support for creating common standards in reading 
and math. They are now planning a formal agreement on these 
standards, to be signed by the participating states.
    Those three groups held a similar meeting in 2005, when 
they created the American Diploma Project. Under this project, 
governors, state education officials, high-school educators, 
and business executives worked together to create standard 
graduation requirements for high-schoolers. There are now 34 
states participating in the program.
    So far as I know, the federal government didn't initiate 
these meetings, nor dictate their outcome. And they didn't need 
to. The states took care of it all by themselves. They saw a 
common problem, came together, and took steps toward addressing 
it.
    That is how it should be. And I urge members of this 
committee to encourage these efforts by staying out of their 
way. This is the first hearing of the 111th Congress on the No 
Child Left Behind Act, and I look forward to hearing from this 
distinguished panel about efforts underway to strengthen 
academic standards.
    I think we are right to begin by examining an issue where 
leadership need not, and currently does not, come from the 
federal government. That is the best path to success in this 
case, and I am sure the founding fathers would agree.
    Thank you, Chairman Miller, and I yield back.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you, Chairman Miller and good morning.
    Some people in Washington seem to think that the federal government 
created the states to administer its far-reaching programs and 
policies.
    But that's not the case. History tells us that the states created 
the federal government.
    Similarly, policy reform movements have a tendency to spring forth 
at the state and local level, where elected officials and community 
leaders are closest to the problems we're trying to solve.
    And when it comes to the problem we're trying to solve today--
namely how to ensure rigorous academic standards that will keep 
American students competitive--it would be instructive to look to the 
states for leadership.
    There's no reason why the states can't work together to create 
their own common academic standards, which should be high so we can see 
real improvement among our students.
    In fact, the states have already begun.
    About two weeks ago, three organizations hosted a meeting in 
Chicago. The organizations were the National Governors Association, the 
Council for Chief State School Officers, and Achieve Incorporated--a 
non-profit group.
    Also attending this meeting were the representatives of 37 states, 
the District of Columbia, and Puerto Rico.
    At this meeting, the state and local representatives offered their 
support for creating common standards in reading and math.
    They are now planning a formal agreement on these standards to be 
signed by the participating states.
    Those three groups held a similar meeting in 2005, when they 
created the American Diploma Project.
    Under this project, governors, state education officials, high-
school educators, and business executives worked together to create 
standard graduation requirements for high-schoolers.
    There are now 34 states participating in the program.
    As far as I know, the federal government didn't initiate these 
meetings, nor dictate their outcome.
    And they didn't need to. The states took care of it all by 
themselves. They saw a common problem, came together, and took steps 
toward addressing it.
    That's how it should be, and I urge members of this committee to 
encourage these efforts--by staying out of their way.
    This is the first hearing of the 111th Congress on the No Child 
Left Behind Act, and I look forward to hearing from this distinguished 
panel about efforts underway to strengthen academic standards.
    I think we are right to begin by examining an issue where 
leadership need not--and currently does not--come from the federal 
government.
    That's the best path to success in this case and I'm sure the 
Founding Fathers would agree.
    Thank you, Chairman Miller. I yield back.
                                 ______
                                 
    Chairman Miller. Thank you.
    Let me welcome all of our witnesses. We have a wonderful 
panel this morning that has been deeply involved in this 
subject. And I look forward to their testimony.
    We are going to begin with former Governor Jim Hunt, who 
served four historic terms as governor of North Carolina. Under 
his leadership, North Carolina public schools improved test 
scores more than any other state in the 1990s. Governor Hunt's 
Smart Start program received prestigious Innovations in 
American Government Award, from the Ford Foundation and the 
John F. Kennedy School of Government at Harvard University.
    He currently chairs the board of the James B. Hunt, Jr. 
Institute of Educational Leadership and Policy, at the 
University of North Carolina, which was established in 2001 to 
work with current and emerging political, business, and 
education leaders, on a national level, to improve public 
education.
    Then, we will hear from Commissioner Ken James, who has 
served as commissioner of the Arkansas Department of Education 
since 2004. He is currently president of the Council of Chief 
State School Officers, and vice chairman of the Southern 
Regional Educational Board of Directors.
    Commissioner James began his career in education in 1972. 
He has been a classroom teacher, an assistant principal, a 
principal, a coordinator of planning and assessment, and the 
assistant superintendent.
    Well, we really don't need anybody else, right? We have got 
you. Okay.
    Commissioner James has served as superintendent of schools 
in the Fayette County Public Schools in Lexington, Kentucky; 
Little Rock, Van Buren, and Batesville, Arkansas. In 1998, he 
was selected as Superintendent of the Year of the state of 
Arkansas.
    Randi Weingarten is the president of the American 
Federation of Teachers, and the United Federation of Teachers 
of New York City, and as AFT vice president since 1997. She has 
been involved in many of the major AFT policy initiatives of 
the last decade.
    As a teacher of history at Clara Barton High School in 
Brooklyn's Crown Heights from 1991 to 1997, Ms. Weingarten 
helped her students win several state and national awards. From 
1986 to 1998, Weingarten served as counsel to the UFT President 
Sandra Feldman.
    In September 2008, Randi Weingarten led the development of 
the AFT Innovation Fund, a groundbreaking initiative to support 
sustainable, innovative and collaborative reform projects, 
developed by members of the local unions, to strengthen our 
public schools.
    David Levin is the co-founder of the Knowledge is Power 
Program, a high-performing charter-school network. In 1994, 
Levin launched KIPP, in Houston, Texas, along with his 
colleague, Mike Feinberg, after completing his commitment to 
Teach for America.
    He then returned to New York and launched KIPP in the South 
Bronx. And these two original KIPP academies became the 
starting place for a growing network of schools that are 
transforming the lives of students in under-resourced 
communities, and redefining the notion of what is possible in 
public education. Today, there are 66 KIPP schools, serving 
16,000 students in 19 states, and the District of Columbia.
    Finally, we will hear from Greg Jones, who is the chairman 
of the California Business for Education Excellence, and the 
California Business Roundtable. He is the retired president and 
CEO of the State Farm General Insurance, where he led a team of 
almost 8,000 employees.
    Mr. Jones also serves the board of directors for Junior 
Achievement in Southern California, the California Chamber of 
Commerce and California Business Roundtable, and Franklin 
University and the Los Angeles Sports Council, and the Los 
Angeles Urban League, and the National Urban League and 
Operation Hope.
    Thank you for taking a moment of your time to be with us. 
That is a lot of meetings--but welcome to you all.
    As the rule on the committee--you will be recognized for 5 
minutes. When you begin your testimony, the green light will go 
on. At 4 minutes, an orange light will go on, which suggests 
that you might want to start thinking about wrapping up your 
testimony. And then the red light will go on, at which time, 
you should finish your testimony.
    I am going to be a little tough on the time, because I am 
worried that we are going to get a vote, as I mentioned, on the 
budget resolution. And I would like to get your testimony in 
and, hopefully, get a few members the opportunity to ask 
questions before that vote takes place.
    Governor, welcome to the committee. We look forward to your 
testimony.

   STATEMENT OF JAMES B. HUNT, JR., FORMER GOVERNOR OF NORTH 
CAROLINA AND FOUNDATION CHAIR, JAMES B. HUNT, JR. INSTITUTE FOR 
               EDUCATIONAL LEADERSHIP AND POLICY

    Mr. Hunt. Thank you, Mr. Chairman, Congressman McKeon, and 
members of this committee.
    I appreciate the chance to be here with you. And I want to 
speak as one who was known as an economic-development governor. 
You probably thought it was about education, Mr. Chairman.
    Most governors----
    Chairman Miller. Pull that microphone a little bit closer 
to you.
    Mr. Hunt. All right.
    Most governors are primarily about jobs. They work at it 
day and night. They travel the globe trying to find jobs for 
their states. And the good ones figure out pretty quickly that 
if they are going to have the good jobs, and they are going to 
create new ones, they have got to have a well-educated, highly 
trained workforce.
    Now, during the 16 years I was governor, North Carolina was 
ranked as the number-one state for new industry location, many 
of those years. And in many of those years, we led the nation 
in the actual dollars invested by foreign companies coming to 
America.
    Now, I mention that just to say to you that what we are 
talking about here today is not just education. It is the 
economy. It is jobs. It is our future. And we all know today 
how critical that is.
    And I want to speak from the point of view of a governor 
who really did get involved in this. And I see Congressman 
Castle--you have come in, my good friend, and one of the great 
governors who led on education, as well as in the Congress.
    Good governors have really gotten deeply involved in 
education. They haven't just left it up to the educators. Thank 
goodness for them. They are the ones who are most knowledge. 
But they get out there and use their bully pulpit, and they 
build coalitions, and they work with business, and they do 
everything they can to try to make education better.
    I don't have to say to you what has happened to our 
rankings in the world. You have already done that, Mr. 
Chairman. I do want to commend this Congress for what you have 
done, and the things you are working on now.
    I don't know how often you hear this, but I want to say to 
you, in addition to getting us started with federal aid to 
education many years ago, the action you took about 8 years ago 
to commit our nation to high goals for our children--for all of 
them--for measuring how we are doing--for looking at those 
subgroups--was one of the best things this country has ever 
done. And I commend you. And I hope you will stay involved in 
that way.
    Chairman Miller. You can say that again, if you want----
    Mr. Hunt. Thank you.
    But with all we have done--and we have made some progress--
let us don't say we haven't. We have. The Wall Street Journal, 
today, has the new NAEP results--high school, not as much--but 
we made some. But we have really been disappointed. We can do a 
whole lot better, folks, than we are doing.
    I guess if there is one thing that I want to say to this 
committee is: Don't get the idea that America can't do it. We 
can do it if we work together. But we have got to have 
leadership from here. We have gotten some good leadership. We 
have got to have a lot more. We have got to act as a nation, if 
we are going to be competitive, and if we are going to help all 
of our schools do well.
    One of the main reasons we haven't done better, Mr. 
Chairman, is the fact that the students and the teachers of 
America don't have a clear understanding of what they need to 
know and be able to do. The standards are all over the place. 
They are vague. There are too many. You have already talked 
about that.
    But I just want to say to you, as a governor who served in 
the ways that I did, I see this as one of the great problems we 
have today. And we have got to do something about it.
    And by the way, I have--let me mention to you a couple of 
things that the Hunt Institute has done. We have a publication 
called Blueprint, telling about our work with the National 
Academy of Sciences, that has helped us, in a very scientific 
way, look at these standards around the country. So we know 
what the situation is, and we know that it is not good.
    We need to have a set of common standards for the country, 
for all of our schools. They need to be not all over the board, 
vague, teach anything you want to. They need to be fewer, 
clearer and higher. But we need to have one set.
    Now, it is not the federal government's job--Congressman 
McKeon, just as you said--to do it. It is the states' job to do 
it. And the states are working at it already. Commissioner 
James will talk about it, and several of you have already 
mentioned it.
    Let me say this to you, though: Just recently, we had a 
national poll done by Education Next in the Harvard Program for 
Education Policy and Governance. They did a first-class poll. I 
know a lot about polls. This one was accurate.
    69 percent of the American people want us to have one set 
of standards for our schools--one test, or one set of tests for 
our schools. The great majority of the people are way ahead of 
us in education, and in politics. They want to see this done. I 
was amazed when I saw those poll figures. But they are 
accurate.
    Now, you are going to hear about the efforts that have 
already begun. I am very proud of that. And, by the way, the 
Carnegie Corporation now has, along with the Institute for 
Advanced Studies at Princeton--has a big commission working on 
math and science education that will report soon. They will 
support this idea of common standards, along with other things.
    But the second thing we need to do, Mr. Chairman, is to 
have good assessments. The assessments should measure whether 
or not we are learning the standards.
    Let me just wrap up by saying: I suggest five things. 
Number one, support state-led development of common standards 
that are fewer, clearer, higher. Second, push us to do the same 
thing with science standards, not just math and language arts. 
Third, sponsor development of teacher-designed curriculum that 
aligns with the standards, and make it available to the states.
    Fourth, support and fund the design and implementation of 
high-quality state assessments--go beyond the bubbles, the 
multiple choice. And, fifth--and I want to say this very 
clearly, and I am through--let us all stand firmly behind the 
very fine, knowledge, strong secretary of education we have in 
Arne Duncan.
    I cannot tell you how good he is, and how much I think he 
will do for America in education and in economic growth. I am 
thrilled he is here. And I just hope everybody will stand 
behind him and help him do his job.
    [The statement of Mr. Hunt follows:]

Prepared Statement of James B. Hunt, Jr., Chairman, James B. Hunt, Jr. 
   Institute for Educational Leadership and Policy Foundation Board, 
                   Former Governor of North Carolina

    Mr. Chairman, Ranking Member McKeon, and members of the Committee, 
it is an honor to be here today to discuss the need for common national 
standards that are rigorous and relevant, and the critical role they 
play in strengthening America's economy on a long-term basis.
    Let me be clear from the very beginning. We need a set of common 
state standards that are rigorous and relevant, and we must stop 
fooling around. Today, the variability in state standards is off the 
charts. There should not be 50 different versions of algebra I across 
the nation. It's just not logical; students in California learn the 
same as students in North Carolina.
    We must be vigilant in our development of common standards that are 
fewer, clearer, and higher. The process for getting there must be based 
on evidence of what's necessary and sufficient for students to succeed 
in college and in work--not on including everyone's, or every interest 
group's, opinion. It should be a tight common core that teachers can 
teach and students can understand and master.
    As governor of North Carolina for 16 years, I conducted my share of 
trade missions. When visiting India, China, South Korea, and other 
developing nations, I witnessed countries intensely focused on 
educating students to compete in a knowledge-based economy. These 
countries knew that having a well educated workforce was critical to 
building a strong economy, and even back then, they were working to 
reform education in ways that made sense for their future. For them, it 
wasn't about tailoring the system; it was about changing the system. 
Today, those same nations are eating our lunch.
    The highest performing education systems in the world--Hong Kong, 
Singapore, Japan, Canada, the Netherlands, Finland, Denmark, and 
Australia--consistently perform at the highest levels on international 
assessments such as the Programme for International Student Assessment 
(PISA) and Trends in International Mathematics and Science Study 
(TIMSS). It is worth noting they also outperform the United States on 
all of these international studies. We are the most industrialized 
nation in the world; such results don't add up.
    Assuring all students graduate prepared to meet the challenges of 
living and working in a global economy must be a priority of this 
nation, and there is no greater time to forge ahead with bold 
initiatives to educate our citizens. Whether we are preparing our 
students for college or work, they have the right to expect that the 
education they receive in our public schools meets the very highest 
standards of quality and rigor--regardless of where they live. 
Geography should not represent academic destiny. The world is changing, 
but our schools are not, and it is time for us to do something about 
it.
    In 2006, the Hunt Institute conducted a survey among influential 
policy makers and education leaders to determine the feasibility of 
starting a national dialog focused on developing a common set of 
standards--world class standards that would be second to none. The 
overwhelming response was favorable, even among individuals and 
organizations that some years ago had been opposed to such an 
undertaking.
    The following year, the Hunt Institute commissioned the National 
Research Council (NRC) of the National Academies to look objectively at 
the status of state standards--now the norm across the nation. The 
findings concluded that the current system of standards-based reform is 
not working as intended. State content standards do not provide 
educators with clear priorities for instruction, and state assessments 
have remained ineffective instruments for measuring student progress; 
witness the disparities in NAEP and state test scores. In addition, 
standards-based reform efforts have not had the desired effect on 
classroom instruction, and we have not yet built the political will to 
address disparities in educational opportunity.
    Countries that excel on TIMSS have well-sequenced, focused math 
standards in place. This provides a strong foundation for teaching, 
learning, and assessment. However, the NRC found that current state 
content standards are repetitive and poorly sequenced from grade-to-
grade. The current processes to develop state content standards are 
broadly inclusive--this prevents snags of opposition but yields less 
focused standards. And not only do our standards suffer from a lack of 
focus and clarity, but the variation across states is even greater than 
we'd expected--even when beginning from a common starting point such as 
National Council of Teachers of Mathematics (NCTM).
    How can we expect our students to be engaged and compelled to apply 
themselves when we have not yet established clear goals for learning in 
our public schools? To share the NRC findings with governors and state 
leaders who can act, the Hunt Institute launched Blueprint, a 
publication that describes such research within the context of today's 
challenges.
    Our upcoming issue will focus on key issues and resources within 
each system component outlined in the American Recovery and 
Reinvestment Act (ARRA) of 2009. We know that standards are critical, 
but aren't sufficient on their own. Only a systemic approach will get 
us where we need to be. Standards need to be supported by an integrated 
system, including curriculum, assessment, instruction, teacher 
preparation, and professional development. Unless our efforts reach the 
on-the-ground activity of teaching and learning, they will have been in 
vain. Standards-based reform was meant to be systemic reform.
    The ARRA presents a unique opportunity to re-envision standards-
based education as a systemic effort. States have a short timeframe to 
develop plans for phase two of the State Fiscal Stabilization Fund 
allocation and competitive grant opportunities. And states are being 
encouraged to work together--pooling resources and brain power.
    In this unprecedented move, governors have been given a prominent 
leadership role in education reform--and rightfully so. Governors are 
in a unique position to build and push daring education agendas at a 
time when it's needed most. A 21st century education governor uses the 
bully pulpit and political levers to solidify public support, build 
coalitions and position himself or herself as the driving leader. I 
always challenge them to do just that.
    Since 2002, the Hunt Institute has brought together governors at 
our Governors Education Symposia to arm them with ideas and strategies 
to promote academic achievement in their states. An added bonus is the 
opportunity to talk to each other about what has worked--and what 
hasn't. This year's Symposium, which we're doing in partnership with 
NGA Center for Best Practices, is designed to help governors to better 
understand the intricacies of the ARRA and how it can work for their 
states.
    Yes, our governors must be audacious and think unconventionally 
when it comes to education reform, but knowing what works helps them 
know what kind of investments to make. Many citizens and leaders 
understand that having a single set of expectations for all students is 
a crucial step to improving both student achievement and equity. 
Content standards must form a clear, coherent message about teaching 
and learning in each subject area, and we must ensure that world-class 
content standards form the basis of every child's education.
    In 2007, the Hunt Institute began partnering with the Alliance for 
Excellent Education and the Council of Chief State School Officers 
(CCSSO) to explore the potential for a common set of content standards. 
Findings from the Hunt Institute's project with the NRC and discussions 
during our 2007 and 2008 Governors Education Symposia informed this 
effort. The partner organizations agreed that a common set of state 
standards should be fewer, clearer, and higher than our current state 
standards. They must be internationally benchmarked and based on 
evidence about the essential knowledge and skills that students need to 
be prepared for college and work. This work must be externally 
validated.
    It is critical that any effort to develop common standards is 
state-led. Earlier this month, in Chicago, the National Governors 
Association (NGA) and CCSSO invited state leaders to discuss such an 
effort. Among the 42 states represented (including the District of 
Columbia and Puerto Rico), there was nearly unanimous desire to be 
involved in a process to develop common standards. Acknowledging that 
assessment greatly influences what gets taught in the classroom, state 
leaders also stressed the need to develop assessments aligned with 
content standards. To accelerate this process, CCSSO has brought a 
number of organizations with expertise to the table: ACT, Achieve, and 
the College Board.
    This multi-state approach is voluntary and a step in the right 
direction. I encourage all states to join the effort, and challenge 
those states that sign on to the MOU to adopt the core standards and 
resist the urge to expand them. This will ensure that the core is 
really the focus of the state's educational efforts. We can't afford to 
get distracted by making multiple additions to satisfy every interest 
group.
    Evidence from the NRC studies clearly indicates what happens when 
states are too inclusive. This practice leads to standards that are a 
mile wide and inch deep. EdWeek reported last month that experts are 
siding with depth of knowledge versus breadth of knowledge--especially 
when it comes to the sciences.
    The Carnegie-IAS Commission on Mathematics and Science Education, 
on which I serve, is focusing on new standards and assessments in math 
and science that are fewer, clearer, and more rigorous. We want to 
achieve higher levels of math and science learning for all American 
students and redesign schools and systems to deliver math and science 
learning more effectively. Essentially, we are using math and science 
as a lens to look at systemic reform.
    The Commission will detail how weaving together strategies that are 
often treated a separate--developing fewer, more rigorous, common 
standards that are aligned to high-quality assessments; building 
teacher effectiveness; encouraging innovations at all levels throughout 
the education system; redesigning how curriculum is delivered--can 
create a unified plan for raising math and science achievement for all 
American students.
    Assessment plays a critical role in determining what gets taught. 
Understanding this, the Hunt Institute is excited to once again engage 
the NRC in an effort to consider the status of our current tests and 
envision a new generation of assessments. If we could develop 
assessment systems that better evaluate the individual progress of 
students, we'd open the door for new measures of accountability under 
the Elementary and Secondary Education Act (ESEA) reauthorization. This 
is a prime opportunity for states to pool their resources to develop 
better tools. The benefit of such state collaboration has been 
demonstrated by efforts such as the New England Common Assessment 
Program (NECAP) and the shared Algebra II assessment among American 
Diploma Project states.
    A recent study released by McKinsey & Company, The Economic Impact 
of the Achievement Gap in America's Schools, shares key findings on the 
international, racial, income, and systems-based gaps facing the United 
States and assesses the economic impact of the economy as a whole and 
as individuals. The study states that such ``educational gaps impose on 
the United States the economic equivalent of a permanent national 
recession.'' Though it may seem like an uphill battle to secure a set 
of world-class standards and learning opportunities for every American 
student, it is the right thing to do.
    Here's what Congress can do to promote the implementation of common 
standards:
    <bullet> Ensure that the multi-state development of common content 
standards is based on empirical research and solid evidence about what 
our students need to know and be able to do to be successful in college 
and work; communicate these to the American public.
    <bullet> Foster the initiation of a similar effort to address 
science standards; communicate the need for these to the American 
public.
    <bullet> Sponsor the development of teacher-designed curriculum 
that aligns with the standards and make those available to the states.
    <bullet> Support the design and implementation of high-quality, 
state-of-the-art assessments that reflect the newly designed content 
standards. Make those assessments available to all states that 
faithfully adopt the new content standards. These assessments should go 
beyond the boundaries of multiple choice and paper tests and should 
include opportunities for students to apply their knowledge.
    <bullet> Fund the design of both formative and summative 
assessments that are aligned with each other. Formative assessment 
results must allow for quick turnaround to inform instruction.
    <bullet> Fund the redesign of teacher preparation programs--both 
university-based and alternative programs--to prepare teachers to teach 
to the content standards and use the assessments to improve 
instruction.
    <bullet> Support the creation of a national database of empirically 
based instructional strategies that promote high achievement for our 
neediest students.
    <bullet> Require higher education and PK-12 systems to work 
together to create a seamless system.
    <bullet> Fund the design of research-based models of professional 
development for teachers, principals and superintendents. Require that 
federal funding for these initiatives include rigorous evaluations.
    <bullet> Stand firmly behind the Secretary of Education and the 
requirements of the assurances.
    This is a long way from being the toughest thing America has ever 
had to do. Yet, I would suggest to you the risks we are facing are as 
great as anything we have faced in a long time. We just simply have to 
do it. We must be able to compete on the global stage or we will slip 
into a second rate nation and I fear we will never come back.
    Thank you for the opportunity to speak to you today about this 
important change in American education reform. Having a common core of 
internationally-benchmarked standards is essential to the future 
success of this nation, and the Hunt Institute and I will continue to 
work to that end.
    I will be happy to answer your questions.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. James, welcome.

  STATEMENT OF KEN JAMES, COMMISSIONER OF EDUCATION, ARKANSAS 
                    DEPARTMENT OF EDUCATION

    Mr. James. Good morning.
    Chairman Miller, Ranking Member McKeon, members of the 
committee----
    Chairman Miller. Microphone, Doctor.
    Mr. James. I got it.
    Chairman Miller. Yes.
    Mr. James. Good morning, Chairman Miller, Ranking Member 
McKeon, members of the committee. Thank you for inviting me to 
speak today about the state-led common-standards initiative 
that is currently being guided by the Council of Chief State 
School Officers and the National Governors Association.
    Voluntary state collaboration to develop a common core of 
high standards is an idea whose time has truly come. I come to 
you today in dual roles: As the lead education officer in my 
home state of Arkansas, and as president of the Council of 
Chief State School Officers.
    In both of these positions, I have witnesses not only 
widespread support for state-led common standards, but a 
sincere belief that states must lead this process. CCSSO and 
NGA began to facilitate a dialogue around this topic over 2 
years ago. Significant progress was made during this period, 
and a number of states are now poised to join a voluntary 
state-led standards process, which adheres to several key 
principles.
    First and foremost, this is a voluntary state-led effort to 
establish a common core of standards across the states. Let me 
be clear: This is not an effort to establish federal standards. 
The effort to establish a common core will build directly on 
the recent work of leading states and initiatives that have 
focused on college and career-ready standards.
    Leading states will be called upon to participate, and add 
their knowledge to the standard-setting process. And it is 
expected that these leading states, based upon that prior work, 
will be the furthest along in terms of the adoption of these 
standards.
    Furthermore, no state will see their standards lowered. And 
I think that is a key piece that each and every one of us need 
to clearly embrace. Oftentimes, the perception is when you come 
about a common effort, then the net effect is lowering of 
standards. That is not what this topic and conversation is 
about.
    Rather, the purpose of the common state standards is to 
raise the bar for all states, by drawing on the best research 
and evidence from leading states and experts, regarding, among 
other things, college and work readiness, rigorous knowledge 
and skills, and international benchmarking.
    In March, President Obama made a visit to the Council of 
Chief State School Officers, our annual legislative meeting 
here, in D.C. The state chiefs were not only honored by the 
President's appearance, but, more importantly, were enthused by 
his support of a state-led common-standards movement.
    This support of a state-led approach, and addressing this 
important issue, was also echoed later in that same meeting, by 
Secretary of Education Arne Duncan.
    Two weeks ago, in a monumental event, in my opinion, after 
serving in as a chief for years--41 states gathered in Chicago, 
to begin to talk about what this might look like, looking at 
the areas of mathematics and English-language arts.
    I am pleased to report that my colleagues, after a great 
deal of conversation, and with representatives from their 
governors' offices, were excited to be engaged in this 
conversation. We were also joined by representatives from 
Achieve, the College Board, ACT and the National Governor's 
Association. That makes 41 states, and many key stakeholders, 
expressing a strong interest in the pursuing of this goal of 
common standards.
    Realizing that not all states will be able to immediately 
commit to this endeavor, I was still extremely impressed and 
encouraged by the breadth of interest across this country.
    As the Arkansas commissioner of education, I have witnessed 
another level of support for common standards. On April the 
10th, we gathered in Little Rock to talk about the American 
Recovery Act. We had 1,100 people gathered to talk about that, 
and to look at ways to spend that money.
    After 2 hours of intense dialogue, I am happy to tell you 
that after I announced I was going to Chicago to talk about 
state-led standards, the room erupted in applause. That was 
really the only applause we had during that entire 
conversation, even though we were talking about a sizeable 
amount of money. But I think that tells you, and is very 
indicative, of the broad-based movement in our state, as well 
as other states across this country.
    Clearly, state-led common standards have the support and 
excitement of the president, the secretary of education, and 
all the states that I have mentioned to you, in terms of the 
collection that we had in Chicago.
    Here is why I think people are ready to embrace this 
initiative: The most basic way to impact student achievement is 
to meet the demand to guarantee that what is being taught in 
classrooms in every zip code across this country is both 
rigorous and relevant.
    Over the last several years, we have seen states come 
together, with the American Diploma Project, and a variety of 
different things. Fifteen states have now completed this work. 
And I am happy to tell you that Arkansas is one of the eight 
states that is a part of the second Career and College-Ready 
Policy Institute that is working diligently right now, with 
Achieve.
    Every summer, we get teachers together in the state of 
Arkansas, which is a very, very indicative process across this 
country, where we bring them together to talk about state 
standards. What I have done--we had scheduled, this summer, to 
talk about English-language arts. I have now put that process 
on hold, given this effort that is underway, because we would 
be premature to engage in that process before we have a clear-
cut direction in terms of what these next steps are going to 
be.
    So I am very excited about that, and our folks in Arkansas 
are very excited about that.
    Perhaps, you also see the inefficiency of replicating such 
efforts at least 50 times across this country. This redundancy 
is another compelling reason for states, and for my local 
educators, to want to move forward in this endeavor. Not only 
is this time-consuming, but each state also has the unnecessary 
cost that is associated with this time-consuming effort.
    Let me end by paraphrasing something I heard Intel's 
chairman, Craig Barrett, say on numerous occasions: ``Business 
knows no borders; business and industry will go to a state--to 
where the talent pool is located.''
    Our governor, as well, Governor Hunt, talks about economic 
development and education being inextricably linked. And we 
need to clearly understand that if we are going to grow our 
state in Arkansas, we are going to grow this national economy.
    We have to have an educated workforce. We need to clearly 
understand that our students need a set of standards that will 
make them competitive not only in our states, but across this 
country, and internationally.
    I thank you for the opportunity, again, to be with you this 
morning. And we look forward to engaging in this conversation 
further, as this conversation continues to escalate. Thank you 
so much.
    [The statement of Mr. James follows:]

    Prepared Statement of Dr. Ken James, Commissioner of Education, 
                    Arkansas Department of Education

    Chairman Miller, Ranking Member McKeon, members of the committee, 
thank you for inviting me to speak today about the state-led common 
standards initiative being guided by the Council of Chief State School 
Officers and the National Governors Association (NGA). Voluntary state 
collaboration to develop a common core of high standards is an idea 
whose time has truly arrived.
    I come to you today in dual roles: as the lead education officer in 
my home state of Arkansas and as president of the Council of Chief 
State School Officers (CCSSO). In both of these positions, I have 
witnessed not only widespread support for a state-led common standards 
setting process, but a sincere belief that states must lead this effort 
for the good of our young people and for the good of our country.
    CCSSO and NGA began to facilitate a dialogue between state leaders 
about the state-led common standards initiative more than two years 
ago. Significant progress was made during this period and a number of 
states are now poised to join a voluntary, state-led standards setting 
process, which adheres to several key principles.
    First and foremost, this is a voluntary, state-led effort to 
establish a common core of standards across the states. Let me be 
clear, this is not an effort to establish federal standards. The effort 
to establish a common core will build directly on the recent work of 
leading states and initiatives that have focused on college- and 
career-ready standards. Leading states will be called upon to 
participate and add their knowledge to the standards setting process, 
and it is expected that leading states, based on their prior work, will 
be furthest along toward adoption of the common core. Furthermore, no 
state will see their standards lowered as a result of this 
collaboration. Rather, the purpose of the common state standards 
initiative is to raise the bar for all states by drawing on the best 
research and evidence from leading states and experts regarding, among 
other things, college- and work-readiness, rigorous knowledge and 
skills, and international benchmarking.
    In March, President Obama made a visit to the Council of Chief 
State School Officers' annual legislative meeting here in Washington, 
D.C. The state chiefs were honored by the President's appearance, but 
more importantly were enthused by his support of a state-led common 
standards initiative. His support of a state-led approach to addressing 
this important issue was echoed heartily later at the same meeting by 
Secretary of Education Arne Duncan.
    Two weeks ago, CCSSO and the NGA hosted a meeting for state chiefs 
and governors' education advisors whose states might be interested in 
formally joining a coalition to commit to engaging in a process that 
would ultimately deliver the first sets of common standards in the 
areas of mathematics and English language arts. That meeting occurred 
on April 17 in Chicago; and I am pleased to report that 40 of my 
colleagues along with representatives from their governors' offices 
attended. In addition, we were joined by representatives from Achieve, 
the College Board, ACT, and the National Governors Association. That 
makes 41 states and many key stakeholders expressing a strong interest 
in pursuing this goal of state-led common standards. Realizing that not 
all states will be able to immediately commit to this important effort, 
I was still extremely encouraged by the breadth of interest across the 
country. And I do believe that we will have a strong showing of states 
ready to continue the next stage of the standards development process 
during the coming weeks and months.
    As the Arkansas Commissioner of Education, I have witnessed another 
level of support for common standards that I must share with you. On 
April 10, I met with superintendents, school board members and other 
school officials from across my state to discuss the education 
provisions of the Recovery Act. We had more than 1,100 people present, 
all anxious to learn about the stimulus funding, including how the 
money could be most effectively spent. After nearly two hours of 
discussing that topic, I mentioned that I would be flying to Chicago 
the following week to meet with my colleagues about creating state-led 
common standards. That was the first time the room erupted in applause.
    Clearly, state-led common standards have the support and excitement 
from folks all the way from the President of the United States to 
superintendents and school board members in rural towns of Arkansas. 
I'd call that a broad base of support, indeed.
    Here is why I think people at all levels are ready to embark on 
this initiative. Foremost, we are all well aware of the economic 
imperative for this country to take drastic steps in the realm of 
education to create a competitive workforce and maintain our role as a 
world leader. The most basic way to impact student achievement to meet 
this demand is to guarantee that what is being taught in classrooms in 
every ZIP code of this nation is both rigorous and relevant.
    Over the last several years, many individual states have made great 
strides in developing high-quality standards and improving their 
assessments. These efforts provide a strong foundation for further 
action. For example, a majority of states (35) have joined the American 
Diploma Project (ADP) and have worked individually to align their state 
standards with college and work expectations. Of the 15 states that 
have completed this work, studies show significant similarities in core 
standards across the states. States also have made progress through 
initiatives to upgrade standards and assessments, for example, the New 
England Common Assessment Program.
    Let me tell you how that standard-setting process works in 
Arkansas. Every summer, we convene educators from across the state for 
two, intensive weeks to tackle the standards for whatever subjects are 
to be updated. This summer Arkansas was supposed to update English 
language arts. You may have detected the strain in my voice when I say 
``was,'' as I have decided to put that process on hold with the 
expectation that this coalition of states will move forward in the 
state-led common standard-setting process.
    Nevertheless, typically when those educators come to Little Rock, 
they engage in a process that requires rigorous hours over two weeks 
ensuring that they have considered the most current and relevant 
research and evidence leading to the delivery of the most appropriate 
standards for the subject at hand. Those two weeks are followed by 
several weekend sessions throughout the year until the standards are 
approved by the State Board of Education. It's a good process.
    But perhaps you too see the inefficiency of replicating such 
efforts at least 50 times--once in each state and the territories. This 
redundancy is another compelling reason for states--and for my local 
educators--to want to move forward in the effort of state-led common 
standards. And, again, building on the work in many states, we already 
have evidence that key aspects of commonality among state standards 
already exist and that repeating standard setting efforts for each 
subject in each state is unnecessarily costly in terms of time, energy 
and money.
    Let me end by paraphrasing something I heard Intel's chairman Craig 
Barrett say: business knows no borders, and business and industry will 
go to where the talent is.
    States are not preparing our students to compete with students in 
the neighboring school district or even the neighboring state. We are 
preparing them to compete globally and, in order to do so, we must make 
sure that we equip students across this nation--in areas rural and 
metropolitan, mountainous or Delta flatland, rich or poor--with the 
learning blocks to reach the same high standards. That is the only way 
we, as a nation, will thrive.
    Thank you again for the opportunity to appear before you today.
                                 ______
                                 
    Chairman Miller. Thank you.
    President Weingarten?
    Ms. Weingarten. Thank you.
    Can you hear me now?
    Chairman Miller. Yes.

           STATEMENT OF RANDI WEINGARTEN, PRESIDENT,
                AMERICAN FEDERATION OF TEACHERS

    Ms. Weingarten. Thank you, Chairman Miller. Thank you, 
Ranking Member McKeon. Thank you, members of the committee.
    Chairman Miller. We are going to ask you to drag it a 
little bit closer to you.
    Ms. Weingarten. Is that better?
    Chairman Miller. Yes, that is better.
    Ms. Weingarten. And I also appreciate the opportunity to 
testify on the need for common state academic standards.
    As Chairman Miller has already noted, the enactment of the 
stimulus bill is preventing cuts in vital education programs in 
the midst of this current economic crisis. And we thank you, we 
thank the Congress, and we thank the president for that.
    But, as the other panelists have also already noted, we 
must do more to meet the president's goal, and this Congress' 
goal of ensuring that all students receive a rich, rigorous 
education that prepares them for college, or for the workforce 
after high school.
    And, as this committee well knows, for too long, we have 
taken a triage approach to public education. This is not a 
solution, and it is no longer sustainable.
    Education, when done correctly, follows a continuum, each 
piece building on each other, and responding to the next. 
Unfortunately, in the quest for the magic reform, we have let 
our system of education ignore the interrelationship of these 
pieces.
    Important components, such as standards and assessments, 
teacher recruitment and retention, professional development, 
curriculum, improved working and learning conditions, and 
accountability can no longer be treated separately; nor can we 
think about early childhood education or wraparound services--
programs that help level the playing field for poor kids--as 
extras. If we are not addressing all of these issues, we are 
just tinkering around the edges of true sustainable education 
reform.
    And, like the other panelists have already said, we must 
start with the development of rigorous common state standards; 
I mean, like many of the others who have testified--
particularly, Governor Hunt, and Chairman Miller said the same 
thing--core standards--what kids need to know and be able to 
do--fewer, clearer and higher standards.
    We live in a highly mobile, instantly connected world in 
which knowledge travels on highways we can't even see. Our 
students must be able to navigate through that world. And their 
ability to do so will be limited if we don't change our current 
patchwork of varying state standards.
    The AFT has been in the forefront of the standards-based 
education movement, which grew out of two imperatives: One, the 
need to ensure that our students are prepared to compete in the 
global economy, or in the global economy; and, second, the need 
to address the intolerable achievement gap.
    And since 1995, the AFT has judged state standards on their 
clarity and their specificity. We have found too little 
evidence of progress in developing standards that improve 
teaching and learning. In fact, in the 2006 AFT survey, we 
found that just 11 states had all of their reading and math 
tests clearly aligned to strong standards. And, in addition, a 
report issued earlier this year by the Fordham Institute, 
detailed the variability of NCLB's system of accountability, 
while also reinforcing the argument for common state standards.
    The report found, ``Schools that make AYP in one state, 
failed to make AYP in another,'' and that, ``many schools would 
fare better if they were just allowed to move across state 
lines.''
    Imagine the outrage if, during the Super Bowl, one football 
team had to move the ball the full 10 yards for a first down, 
while the other team only had to go seven. Imagine if this 
scenario was sanctioned by the NFL. Such a system would be 
unfair and preposterous. And it is unfair for kids as well.
    So, bottom line, while developing strong core standards, we 
need to ask, ``What else do schools and teachers need to 
succeed with kids?'' They need a content-rich sequenced 
curriculum aligned with assessments. They need instructional 
support such as professional development, standards-based 
guides, and model lesson plans for teachers.
    What about survey that asks teachers what conditions they 
need to help children reach these standards? And how about 
ensuring that any accountability measures track whether 
teachers actually were provided with what was needed?
    Ultimately, we have a lot that we would like to say, and 
have already said, to Secretary Duncan, in a letter on this 
issue, that we sent to the secretary this week, in terms of how 
to create these standards, what the teacher input should be, 
and how to align accountability with that, as well.
    We think that the Race to the Top Fund, that the secretary 
now has, because of the Congress, is a perfect way of trying to 
leverage states doing, and creating, common state standards.
    But the bottom line is this: We need to do this. It is a 
daunting task. We know that. I am not so naive to think that it 
will be easy to reach consensus on common state standards. But 
few things worth achieving are ever easy. The time has come for 
a serious consideration of common state academic standards, and 
to align a better, fairer accountability system with those 
standards. We, at the AFT, are willing and want to help in this 
regard. Thank you.
    [The statement of Ms. Weingarten follows:]

           Prepared Statement of Randi Weingarten, President,
                    American Federation of Teachers

    Chairman Miller, Ranking Member McKeon and members of the 
committee, I am Randi Weingarten, president of the American Federation 
of Teachers. I am also president of the United Federation of Teachers 
in New York City. Thank you very much for giving me the opportunity to 
present the views of the AFT on the issue of common state standards.
    Let me begin by expressing, on behalf of the AFT's more than 1.4 
million members, our thanks to President Obama and the Congress for 
supporting state and local governments, so they are not forced to make 
cuts in vital education programs in the midst of our current financial 
crisis. The AFT strongly supports the president's commitment to 
ensuring that all students receive a rich, rigorous education that 
prepares them to go from high school to higher education or directly 
into the workforce. The investment reflected in the stimulus package 
will help achieve that goal.
    But to address the challenges and seize the opportunities presented 
by this new century, we must do more. We must invest our intellectual 
capital in developing and implementing policies and programs that make 
our education system work--for all our children and, yes, for the 
teachers charged with educating them. Too often, and for too long, 
we've taken a triage approach to public education. But it's not a 
sustainable response or a lasting solution.
    Education, when done correctly, follows a continuum, each piece 
building upon and responding to the next. But our ``system'' of 
education is not really a system, following a logical progression. 
Instead, in the quest for the magic reform, we have divvied up or 
isolated the components that comprise public education and have treated 
each as if it were in a vacuum. That is a mistake. We can no longer 
treat these components--such as standards; assessments; teacher 
recruitment, retention and support; professional development; 
curricula; improved working and learning conditions that students and 
teachers need to succeed; and accountability frameworks--as separate 
policy silos that need not be integrated. Nor can we think about early 
childhood education, or wraparound services like after-school programs 
and healthcare--which help level the playing field for poor kids--as 
ancillary or extra. To put a finer point on it, if we're not addressing 
all of these issues, looking at the whole picture when we think about 
education policies, we're just tinkering around the edges of true 
education reform.
    We should start with standards.
    The AFT supports the development of rigorous common state 
standards. Our reasons are straightforward. We live in a highly mobile, 
instantly connected world in which knowledge travels on highways we 
can't even see. Our students need to be able to navigate through that 
world--to study, work and live in states other than the one in which 
they were educated, if they so chose or if circumstances demand it. 
Their ability to do that, and to do it well, will be limited if we 
don't change our current patchwork of varying state standards.
    This is not a position we've reached only recently, although we 
feel the urgency now more then ever. The AFT has been at the forefront 
of the standards-based education movement, which grew out of two 
imperatives: the need to ensure that our students are learning what 
they need to know to compete in a global economy, and the need to 
address the intolerable achievement gap between advantaged and 
disadvantaged students, and between minority and nonminority students. 
Those imperatives have not changed. If anything, they have become more 
striking.
    Since 1995, the AFT has judged state standards on their clarity and 
specificity, and here's what we've found: As a nation, we have made too 
little progress in developing standards in a way that will improve 
teaching and learning. Despite the decades of work starting from the 
admonitions of Goals 2000 to the testing requirements of No Child Left 
Behind (NCLB), there simply is not enough coherence, rigor or alignment 
in the standards presently in place in the 50 states and the District 
of Columbia. For instance, standards are not aligned to the demands of 
college and work, and standards among states vary widely in quality and 
quantity. Further, although there may be standards for the core subject 
areas, often the standards for each subject are written separately and 
distinctly from the others; the disciplines are not integrated as they 
should be. These problems have had a ripple effect throughout the 
system.
    AFT members know firsthand that the typical state's standards are 
not nearly comprehensive enough to serve as the foundation for a well-
aligned, coherent education system. Knowledge builds on knowledge. The 
more you know, the more you can learn. Teachers know this better than 
anyone. It is, therefore, imperative that standards offer carefully 
sequenced content from the beginning of kindergarten (or, better yet, 
pre-K) through the end of high school. But most state standards don't. 
As a result, we are left with the following:
    <bullet> Students, especially those who change schools frequently, 
end up with gaps and repetitions in their schooling.
    <bullet> Textbook developers try to ``cover'' the standards by 
creating books that have a little bit of everything and a lot of 
nothing.
    <bullet> Guesses as to what will be on the state assessment often 
end up driving instruction.
    <bullet> Professional development too often is about pedagogical 
fads.
    <bullet> Too many districts don't even try to flesh out the state 
standards, much less their own curricula and lesson sequencing, which 
leaves teachers to face these challenges on their own.
    All of these problems could be addressed if we had clear, specific, 
content-rich, grade-bygrade standards. But unfortunately, we seem to 
have fallen off a logical continuum and into a belief that what gets 
tested is what gets taught. All too often, state tests and state 
content standards don't match up. In fact, in one of the AFT's surveys, 
we found that just 11 states had all of their reading and math tests 
clearly aligned to strong standards (``Smart Testing: Let's Get It 
Right,'' July 2006). The AFT research gives us the information we need 
to develop standards the right way.
    In addition, a report issued earlier this year by the Fordham 
Institute detailed the variability of NCLB's system of accountability, 
while also reinforcing the argument for common state standards. The 
Fordham report concluded that ``Schools that make AYP in one state fail 
to make AYP in another. Those that are considered failures in one part 
of the country are deemed to be doing fine in another. Although schools 
are being told that they need to improve student achievement in order 
to make AYP under the law, the truth is that many would fare better if 
they were just allowed to move across state lines.''
    Imagine the outrage if, during the Super Bowl, one football team 
had to move the ball the full 10 yards for a first down while the 
another team only had to go seven. Imagine if this scenario were 
sanctioned by the National Football League. Such a system would be 
unfair and preposterous.
    While developing strong core standards, we also need to ask: What 
else do schools and teachers need? Strong standards are just one piece 
of a foundation that, at a minimum, also should include a content-rich, 
sequenced curriculum and aligned assessments. As for other 
instructional supports, how about standards-based guides for teachers 
that provide essential background knowledge? How about model lesson 
plans that new teachers could teach from and more experienced teachers 
could draw from as they see fit? How about pre-service teacher 
education and in-service professional development that prepare teachers 
to teach the specific content for which they are responsible? How about 
textbooks that, because they are based on clear standards of a 
reasonable length, are slim and focused? How about a survey of teachers 
that asks them what conditions they need to help children reach these 
standards? How about then ensuring that any accountability measures 
track whether teachers actually were provided what they said they 
needed?
    Developing a new system of standards at first blush seems like a 
daunting task, but it must be done. There are a number of ways to do 
it: One way, as I have previously suggested, is by creating 
partnerships--made up of educators, elected officials, community 
leaders, and experts in pedagogy and particular content--to take the 
best academic standards and make them available as a national model. 
Teachers then would need the professional development, and the teaching 
and learning conditions, to make the standards more than mere words. 
Toward that end, the AFT was glad to see that Secretary of Education 
Arne Duncan proposes using the ``Race to the Top'' funds to help 
develop these standards. The ``Race to the Top'' program presents a 
historic opportunity to move toward common state standards by providing 
funds to get the job done. It would be the best possible use of that 
funding, and could and should guide all future reform efforts.
    Regardless of the process by which a comprehensive, standards-based 
system is created, we believe the following guidelines should help 
guide that work. I shared these criteria with Secretary Duncan in a 
recent letter:
    1. Federal funds are needed to support the partnerships that agree 
to develop this comprehensive, standards-based system, and to ensure 
both the coordination and the alignment of this work. No single group 
could or should address all these components on its own, nor should any 
group work in isolation on any one piece. The issue of standards is 
much larger than producing good written documents. To expect students 
to meet high standards, systemic changes must occur. Assessments must 
be developed that reflect what students should know and be able to do. 
Curriculum resources must be developed that help bring the standards 
into the classroom. Professional development must be provided to help 
teachers deliver the content, differentiate instruction as needed and 
adjust delivery as needed, based on data analysis. Federal funds should 
be distributed to those groups that establish partnerships that can 
fully address all of these areas.
    2. The focus should be on fewer, deeper and clearer standards. We 
are all familiar with the stacks of standards that teachers are 
expected to teach to and students are expected to meet. The sheer 
volume of material is not realistic in any setting. We must learn from 
our international peers, and focus on a manageable set of standards 
that emphasizes the most important content and skills that all students 
should learn and that provide the foundation for additional learning.
    3. Teachers must be involved in creating and implementing not only 
the standards, but the assessments, accompanying materials and 
professional development activities as well. All too often, the 
educators who are responsible for helping students progress toward 
mastery of the standards have no input into both what to teach and how 
to teach it.
    4. Finally, policymakers should take the steps necessary to 
coordinate work in different subject areas, to strike the right balance 
and prioritize the standards. We must move past the days of the English 
teachers creating their own expectations for students and the math 
teachers creating their own. This ``my group'' thinking leads, not 
surprisingly, to each creating plans that would require the use of the 
lion's share of instructional time. In such a situation, teachers are 
left to decide what should be taught. Instead, teachers from each 
subject area must come together and identify the critical set of 
standards that covers all grades and subject areas.
    The countries that consistently outperform the United States on 
international assessments have education systems that include all these 
features: national standards, with core curricula, assessments and time 
for professional development for teachers based on those standards. Can 
we afford to do any less here?
    Getting the standards right will not be enough. We also have to fix 
the fundamentally flawed accountability system in NCLB. We need a 
system of accountability that is built around standards and recognizes 
that student, teacher and school success means much more than producing 
high scores on two tests a year. We need a system of accountability 
that is meant to fix schools, not fix blame. And we need an 
accountability system that gives credit for progress and holds everyone 
responsible for doing his or her share--in other words, an 
accountability system that results in the well-rounded education we all 
want for our children.
    More specifically, inadequate tests and a flawed accountability 
system have gotten dangerously out in front of the other elements of 
standards-based reform, threatening the very educational quality we're 
trying to build. Too many communities have inadequate curricula, and 
most school districts have not addressed the huge challenge of building 
faculty and school capacity to lift student achievement dramatically. 
If we are not testing the right information, or the accountability 
system is flawed, or the tests are inadequate, or teachers are not 
supported, we will not reap the rewards a standards-based reform system 
offers. As we look ahead to NCLB reauthorization, we need to address 
these issues in order to fulfill the promise of offering all students a 
high-quality education.
    In addition, data collection and usage needs to be about more than 
just keeping score. It must be used to proactively improve teaching and 
learning. When used well, data can be a powerful tool to inform 
classroom instruction, focus professional development opportunities and 
evaluate curricular programs. Only then will it fulfill its promise of 
helping to improve instruction and student learning.
    As I wrote in a recent Washington Post op-ed, I'm not so naive as 
to think it will be easy to reach consensus on common state standards. 
But I believe that most people agree there is academic content that all 
students in America's public schools should be taught, and that it 
should be taught to high standards. And I would expect near-consensus 
on the opinion that today we are failing in that important mission. It 
won't be easy to reach a national agreement on what every well-educated 
child in every American public school should learn, but few things 
worth achieving are ever easy.
    High standards improve teaching and learning. If we really believe 
that all children can and should reach high levels of achievement, it 
only makes sense to define those benchmarks. The time has come for a 
serious consideration of common state academic standards, and for the 
development of a richer and fairer accountability system to measure our 
progress in reaching them.
    The AFT is ready to assist in any way we can to help move in this 
direction.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Levin?

STATEMENT OF DAVID LEVIN, CO-FOUNDER, KIPP: KNOWLEDGE IS POWER 
                            PROGRAM

    Mr. Levin. Thank you, Chairman Miller and Ranking Member 
McKeon, and fellow committee members. I am honored to be here 
with the panel, to discuss something that is very dear and near 
to our heart at KIPP.
    As the chairman mentioned, we currently operate 66 schools, 
serving over 16,000 kids, in 19 states and the District of 
Columbia. So we have a firsthand look at the sort of maze and 
patchwork nature of the current state standards.
    Many of our schools are the highest-performing public 
schools in their districts, cities and states. And, yet, when 
you look at them side-by-side, they are not performing at a 
similar level, because the standards--very similar to the Super 
Bowl analogy--aren't the same.
    I would like to give a couple of analogies of why we think 
common core standards are so essential, and that they should be 
fewer, clearer and higher.
    Imagine if you needed a passport to go between states in 
this country, and then you had to go through customs every time 
you wanted to go from one state to another. Imagine if you 
needed to exchange your money--that the money you used in New 
York, when you go over to New Jersey, you can't use, and so on, 
down the coast and across the country. Imagine if the languages 
weren't the same from state to state.
    And this is, fundamentally, the reality that faces our kids 
if they move from school in one state, to the next. The 
language isn't the same. The expectations aren't the same. The 
materials that are used aren't even the same.
    Take it down one other level: Imagine a school where one 
classroom gave one test; the classroom next door gave another 
test at the end of the year. They were using different 
textbooks. This was actually the situation that confronted me 
17 years ago, when I started my teaching career.
    It is impossible to share, to learn, or to hold people 
accountable. And, yet, this reality is what our country faces, 
with the nature of our current state standards.
    If you do look at the NAEP, as the chairman mentioned, and 
you compare it to state results, you will see that the vast 
majority of state results are higher than when given the 
national assessment.
    There are many studies done right now that have 75 percent, 
80 percent, 85 percent of high-school seniors in a given 
particular state that are considered by those state standards 
to be performing at or above the state standards. And, yet, 
independent studies show that less than half of these students 
are prepared for college.
    So they may be performing at what the state says is the 
adequate standard. And, yet, when colleges look at their 
performance, less than half of these kids are college-ready. 
And these statistics are even worse if you take a look at low-
income kids, and at kids of color in this country, where the 
college enrollment rate and college completion rate are 
significantly lower.
    So, why the need for state standards, from our point of 
view? First and foremost, without common core standards, there 
really is no way to share and learn what is working, and what 
is not working, from one state to the next. Second, there 
really is no way to have real accountability for student 
results.
    It is, unfortunately, way too easy to take advantage of 
this system. And to give you another example, since the states 
in which we work in have different testing requirements, at 
KIPP, we elected to give a common national test. When you 
compare the results of that common national test to the state 
results, you will have states--our schools--where you have 100 
percent of kids on grade level. And, yet, when you look at the 
common assessment, they perform in the middle of our schools 
nationwide.
    And, finally, common core standards will allow for a 
collective vision for this country to compete again in the 21st 
century. And we need that vision to shift from K-12 to preK-16 
and beyond.
    Our standards can no longer pretend that a high-school 
diploma is the good-enough end goal for our education system. 
What they should look at, I think, has already been talked 
about. They should be fewer; they should be clearer; they 
should be higher.
    They should include content, as well as skills. And, most 
importantly, they should be linked to assessments. Common 
standards without common assessments will not do the trick.
    Finally--and I would like to sort of point out sort of the 
reality we have learned, in our perspective, over the last 15 
years of KIPP--there really is no silver bullet for the 
challenges that face our educational system. Common core 
standards will be a significant improvement in the system. But 
at the heart of every grade school are outstanding teachers and 
principals.
    And as we push for common core standards, that will make 
teachers and principals stronger. But we cannot lose sight of 
the fact that it is one piece of the broader puzzle. Thank you 
very much.
    [The statement of Mr. Levin follows:]

      Prepared Statement of David Levin, Co-Founder, KIPP Schools

    Thank you, Mr. Chairman and distinguished committee members for 
inviting me to testify before the House Committee on Education and 
Labor. I am pleased to represent KIPP (Knowledge Is Power Program) and 
our parents, students, and staff. I appreciate the opportunity to talk 
about the need for common standards in the United States, as it is an 
issue that I have thought about a great deal as an educator and co-
founder of a national public charter school network.
    I want to begin by describing my experience in starting KIPP and 
explain why I am passionate about raising expectations for all 
children. In 1992, I started in education as a teacher in a Houston 
public elementary school through Teach For America. As a new teacher, I 
was surprised to see how little guidance I received about what to do in 
my classroom. I struggled to use the textbooks I was given as they only 
worked for the handful of students who were already motivated and 
performing on grade level. Another Teach For America teacher in 
Houston, Mike Feinberg, found himself in the same frustrated situation.
    Determined to be successful as teachers, we sought out the `master 
teachers' in our respective schools and hounded them relentlessly to 
teach us what they knew about lesson planning and implementation. We 
knew our students would be assessed on the Texas standardized test and 
that seemed important, but ultimately we were concerned that our 
students would learn the content--math and reading skills--they needed 
to thrive in the grades ahead.
    Drawing on what we learned from these master teachers about how to 
motivate students, we started KIPP as an alternative program with 50 
fifth graders at Garcia Elementary school in Houston. In 1995, KIPP 
became a public school in Houston and, while Mike stayed in Houston to 
be its principal, I went to New York City to start KIPP Academy in the 
South Bronx. Both KIPP Academies soon became the highest performing 
schools in their respective communities.
    Based on the success of these first two schools, KIPP began to 
grow. There are currently 66 KIPP schools serving 16,000 students in 19 
states and the District of Columbia. By this summer, there will be over 
80 KIPP schools in operation, and by 2011, 100 KIPP schools will be 
open across the country.
    KIPP schools are open-enrollment public schools and all but one are 
public charter schools. Over 80 percent of KIPP students qualify for 
free or reduced price meals, 63 percent are African American, and 33 
percent are Hispanic/Latino. KIPP started by establishing public middle 
schools, but we have now grown to open high schools and pre-K/
elementary schools.
    KIPP has grown because our schools are producing results that prove 
that demography need not define destiny. According to test score data 
gathered in 2008, KIPP students start fifth grade at KIPP schools 
scoring on average at the 41st percentile in math and the 31st 
percentile in English language arts. By the end of eighth grade, they 
score at the 80th percentile in math and the 58th percentile in English 
language arts. Of the students that have completed eighth grade with 
KIPP, 85 percent have matriculated to college, a rate more than four 
times the national average for similar students.
    When the KIPP network reaches 100 fully grown schools, it will 
serve the same number of students as the public school district in 
Atlanta, Georgia. And yet, as a national network the lack of common 
standards makes it difficult to gauge how well KIPP is meeting its 
ultimate goal: preparing all of our students with the character and 
academic skills for success, self-sufficiency, and happiness in college 
and in life.
    Currently, states set their own standards and determine how hard or 
easy it will be for students to pass. The result? We have passing 
hurdles that are very high in some states and close to the ground in 
others. According to Education Next, which reviews the rigor of state 
standards each year, only three states--Massachusetts, South Carolina, 
and Missouri--have established world class standards in reading and 
math. Some states, like Georgia and Tennessee, have established such 
mediocre expectations that nearly every student is considered to be on 
grade level.
    With states held accountable for meeting the standards they set, 
there's an unfortunate incentive for states to set the bar low. It's 
just too easy for states to take advantage of the system using this 
strategy. In Texas, for example, 75 percent of schools were deemed to 
have made Adequate Yearly Progress in 2008, with more than 80 percent 
of high school students passing state reading and ELA assessments. And 
yet, according to a study by the Manhattan Institute for Policy 
Research, only 43 percent of high school students in Texas are 
graduating with college-ready transcripts.
    I share this with you not to blame specific states, but only to 
illuminate the challenges posed by our current approach. Given the 
current patchwork of state standards, KIPP has chosen to require that 
all of our schools also administer a national, norm-referenced 
assessment in addition to the state assessments their students must 
take. Using data from this assessment, KIPP schools can compare 
performance and readily share what is working.
    And let me emphasize the importance of this last point. As a 
founder of a high performing national network, perhaps most frustrating 
is to see the ways in which the maze of state standards and tests keeps 
great teachers from sharing ideas, inhibits innovation, and prevents 
meaningful comparison of student, teacher and school performance. In 
sum, we are not only creating a system in which academic performance 
means fundamentally different things in different states, we are also 
creating a system in which little can be learned or shared.
    However, common national standards will only be useful if they are 
fewer, clearer, and higher. We need to be careful not to replicate the 
vast and vague standards we see in too many states today. The standards 
should be identified based on proven evidence of what is necessary for 
students to know and do in order to succeed in college and in work. 
Most importantly, these focused common standards should be something 
that teachers can teach and students can understand and master.
    To be clear, common standards and assessments will not be the 
silver bullet for all the challenges that are facing our nation's 
public schools. At KIPP, we have learned that running great schools 
requires remarkable principals and teachers, sustained dedication, hard 
work, and an attention to detail that no one policy or program alone 
can ensure. When it comes down to it, the presence of top quality 
teachers in the classroom continues to be the most important ingredient 
in promoting student achievement. That being said, common standards and 
assessments would be one of the best ways of maximizing the 
effectiveness of all of teachers and principals.
    KIPP schools are held to high standards but they are free to meet 
those standards using the curriculum, instruction, and teaching tools 
that are most effective for their students.
    KIPP's success across 19 states is not only opening doors of 
opportunity for kids, but also creating a ripple effect in the larger 
public school system. High common standards for all students would 
provide a call to action for all public schools across the United 
States.
    Before the Civil War, when talking about our country people would 
say, ``The United States are * * *'' After, it became ``The United 
States is * * *'' It is time that we do the same in education and adopt 
one set of common standards.
    Thank you Mr. Chairman and committee members for your time and 
consideration
                                 ______
                                 
    Chairman Miller. Mr. Jones, welcome.

    STATEMENT OF GREG JONES, CHAIR, CALIFORNIA BUSINESS FOR 
                    EXCELLENCE IN EDUCATION

    Mr. Jones. Thank you, Mr. Chairman, Ranking Member McKeon, 
members of this committee. Thank you for inviting me to testify 
today.
    Since I approach this issue from a business perspective, 
having been a senior business executive for the last 25 years, 
I want to share, first, a few facts about my former employer, 
State Farm.
    The company operates in every state and countless 
communities across the United States. It is constantly being 
recognized for its caliber of its workforce. It is no accident, 
because every applicant that comes to State Farm must first 
pass an entry-level skills test. That test--job descriptions, 
standards that are used--are the same in Illinois, where our 
company is headquartered, as they are in California, where I 
currently live. That is because our customers' expectations are 
the same from one state to the next.
    The company, like, really, every company, now, today, needs 
people with strong computational, analytical and communication 
skills, measured consistently, regardless of where they are 
employed. That is critical because employees, like many of our 
students, find themselves moving from state to state. Today's 
students are tomorrow's workforce. And they must compete with 
their peers worldwide. We must benchmark our standards 
internationally, to enable a business to compete in a global 
economy.
    On a personal note, having two sons who attended schools in 
five different states because of my job transfers, you know, I 
have witnessed firsthand dramatic differences in the rigor and 
the quality of standards and expectations that teachers have 
for my kids to meet them. And while they were fortunate to 
attend schools in good neighborhoods, we, as parents, had to 
make sure that whatever our kids were learning, and in whatever 
school they were learning it, they had to be of a quality and 
caliber of rigor to assure us that they were adequately 
prepared to succeed in college.
    Now, my kids were fortunate to have two parents who 
intervened.
    So my point is that expectations----
    Chairman Miller. Sorry. I don't know if the mic went off or 
not.
    Mr. Jones. I am sorry.
    Chairman Miller. Thank you.
    Mr. Jones. My experience with California education policy--
and I should say that I am a member of the California State 
Board of Education, but I am not representing them today--also, 
I think, sheds some light on the topic of today's hearing.
    According to Achieve and other respected organizations, 
California has high quality and rigorous standards. Yet, as you 
know, we continually face legal and legislative challenges to 
lower those standards, and to make our state tests easier.
    Watering down our standards and lowering our expectations 
might result in more meaningless high-school diplomas. It would 
not serve our students well, who must compete with in-state, 
out-of-state and international peers.
    I think that there are three important lessons that we have 
learned from the California experience. First, it is not enough 
to have excellent standards. They have to be aligned test, 
meaningful accountability and high-quality instruction, as 
well. Second, holding all students to the same expectations, 
and reporting results publicly revealed disturbing achievement 
gaps based on race and economic levels. And, third, we have 
data that demonstrates irrefutably that these achievement gaps 
can be closed without lowering standards or expectations to 
meet them.
    As a result of my experience in business, and also as a 
parent, I take the following approach to the question of 
whether common academic standards can strengthen America's 
competitiveness. And my response is this: ``Yes, if every 
student is held accountable to the same expectations; yes, if 
that common core, starting with reading, writing, math and 
science leave time for students to learn other critical-content 
skills.''
    However, all additional standards must be commonly 
excellent. They must not become commonly mediocre in order to 
reach consensus on a common core of academic standards. They 
need to be benchmarked against the best nationally and 
internationally.
    Yes, if everyone understands that common standards are 
necessary, but not sufficient, they will not result in any 
improvement without aligned tests, real accountability and 
high-quality instruction for all of our kids.
    What is the best way to get the best common academic 
standards? I, personally, believe that states working 
collaboratively is certainly the way to go. As some have 
already mentioned, organizations like Achieve, and the 
governors and CEOs of that board have concluded from past 
history that top-down, federal approach will not produce a 
quality product or politically acceptable results.
    There is already a bottom-up process that has been talked 
about already this morning, and a way to that has led states to 
begin the process of developing a common state academic 
standard. And, as we know, Secretary Duncan is seriously 
considering using Race for the Top Fund to provide incentives 
for states to collaborate on the development of common 
standards.
    Common academic standards will strengthen United States 
competitiveness, I believe, and individual success, if states 
commit to rigor and quality, if federal funds only support 
states committed to rigor and quality, if teaching and 
instruction are aligned with high-quality, common standards in 
tests, and if students received the instruction and inspiration 
they need to graduate from high school to succeed in college 
and work.
    Watered down and alone, we will waste our time, because 
they will not, I believe, make a difference.
    So thank you for allowing me to testify this morning.
    [The statement of Mr. Jones follows:]

 Prepared Statement of Greg Jones, President & CEO, State Farm General 
   Insurance (Retired); Chairman, California Business for Education 
          Excellence; Chairman, California Business Roundtable

    Mr. Chairman, Ranking Member McKeon, Members of the Committee. Good 
morning. I am Greg Jones, most recently retired after working 40 years 
for State Farm, and currently Chairman of both the California Business 
Roundtable and its education arm, California Business for Education 
Excellence.
    Thank you for inviting me to testify before you today on the 
critical issue of common academic standards.
    Since I approach this issue from a business perspective, I want to 
share a few facts about my former employer, State Farm Insurance. The 
company operates in every state and thousands of communities across the 
U.S. and Canada. State Farm has always prided itself on, and been 
recognized for, the caliber of its workforce. This is no accident. In 
order to be considered for a position, every applicant must first pass 
an entry level skills test. That test, the job descriptions, and the 
work expectations are the same in Illinois where State Farm is 
headquartered as they are in California where I currently live.
    The company needs people with strong computational, analytical and 
communications skills measured consistently regardless of what part of 
the country in which they are employed. Consistently high standards are 
critical because employees, like many students, often move from state 
to state. Today's students are tomorrow's workforce and they must 
compete with their peers worldwide. We must benchmark our standards 
internationally to enable businesses to compete in a global economy.
    We are not only concerned about the caliber of State Farm's 
workforce. The company is also concerned about the need for customers 
to have the analytic skills to make wise choices about insurance 
products. And as taxpayers, State Farm and other companies understand 
the return on investment that comes from a quality education. That is 
why State Farm has made a long-term commitment to ensuring that 
education policies and practices result in high expectations, high 
standards, and high quality teachers for all students--no matter where 
they live.
    On a personal note, having two sons who attended schools in five 
different states because of my job transfers from one insurance office 
to another, I've witnessed firsthand dramatic differences in the rigor 
and quality of standards and the expectations that teachers had for my 
kids. And while my kids were fortunate to attend good schools, we as 
parents had to make sure that whatever our kids were learning in 
whatever school they were attending was of a quality and caliber of 
rigor to adequately prepare them to succeed in college. My kids were 
fortunate to have two parents who intervened on their behalf. My point 
is that expectations for excellence should not depend on luck or where 
you live because many of our nation's kids are not as fortunate as my 
own.
    My experience with California education policy (full disclosure--
I'm also a member of the California State Board of Education but I am 
not representing the Board today) also sheds some light on the topic of 
today's hearing. As many of you know, if California was a country, its 
economic engine would be the fifth largest in the world. According to 
Achieve and other respected organizations, California has high quality 
and rigorous standards. Yet, we continually face legal and legislative 
challenges to lower our content standards and make our state tests 
easier. Watering down our standards and lowering our expectations might 
result in a higher number of meaningless high school diplomas, but how 
would that help the students who will have to compete with in-state, 
out-of-state and international peers? There are three important lessons 
from California's experience:
    <bullet> First, it's not enough to have excellent standards. 
Aligned tests, meaningful accountability and high-quality instruction 
are also critical.
    <bullet> Second, holding all students to the same expectations and 
reporting results publicly reveal disturbing achievement gaps based on 
race and economic levels.
    <bullet> And third, we have data that demonstrates irrefutably that 
these achievement gaps can be closed without lowering standards or 
expectations to meet them.
    As a result of my experience in business and also as a parent, I 
take the following approach to the question of whether common academic 
standards can strengthen America's competitiveness--YES, IF * * *
    YES, IF every student is held to the same high expectations.
    YES, IF the common core--starting with reading, writing, math and 
science--leave time for students to learn other critical content and 
skills. However, all additional standards must be commonly excellent; 
they must NOT become commonly mediocre in order to reach consensus on a 
common core of academic standards. They need to be benchmarked against 
the best nationally and internationally.
    YES, IF everyone understands that common standards are necessary, 
but not sufficient. They will not result in any improvement without 
aligned tests, real accountability and high-quality instruction for all 
of our kids.
    What's the best way to get the best common academic standards? 
That's both a substantive and political question. In business, we 
benchmark best practices and then we do it. But I realize that the Nike 
``Just Do It'' slogan is not the way the education policy world works!
    Ed Rust, the CEO of State Farm, is on the Achieve Board, and the 
Governors and CEOs on that Board have concluded from past history that 
a top-down, federal approach will not produce a quality product or a 
politically acceptable result. There's already a bottom-up process 
underway led by the states to develop common state academic standards, 
and Secretary of Education Duncan is seriously considering using the 
Race to the Top Fund to provide incentives for states to collaborate on 
the development of common standards and tests.
    Common state academic standards will strengthen U.S. 
competitiveness and individual success:
    <bullet> if states commit to rigor and quality;
    <bullet> if federal funds only support states committed to rigor 
and quality;
    <bullet> if teaching and instruction are aligned to high quality 
common standards and tests; and
    <bullet> if students receive the instruction and inspiration they 
need to graduate from high school prepared to succeed in college and 
work.
    If standards are watered down, or individual states refuse to join 
the common state standards effort, we will not succeed in creating the 
globally competitive workforce of tomorrow.
    Thank you for the opportunity to testify today. I would be pleased 
to answer any questions you may have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Thank you to all of you for your testimony, and for your 
involvement. I find it very encouraging. And I know that when 
we wrote and past No Child Left Behind, there was sort of a 
background discussion about setting standards, and the federal 
government setting standards. And it was, I think, a pretty 
clear consensus that that is certainly not what we should have 
done at that time, given everything else we were asking states 
and others to do with No Child Left Behind.
    But I think that also has evolved into a consensus, now, 
that the existing set of state standards is unacceptable and 
is, in fact, damaging our educational future, and our students, 
and our economy. And I think that that is fairly widely 
arrived-at through the entire hierarchy of the education 
system, but, certainly, I think, also in the public.
    Mr. James, you mentioned, when you met locally with your 
people across the state, the idea that you were coming to 
discuss these issues, you found great enthusiasm with them. 
They also must know, in the back of their minds, that it isn't 
just about standards. If you do this, you have to drive other 
changes in the system, with personnel and management.
    Do you think that they fully understand that, in their 
enthusiasm?
    Mr. James. Yes, sir--and good question.
    Absolutely, they do, because this is the next step in our 
process. We have been engaged in reform efforts for the last 5-
plus years. And that has been driven, to a great degree, by 
legislation that is been passed in our state, with high-stakes 
accountability; also, with a heavy infusion of resources. We 
are fortunate to be one of the states that is not having budget 
cuts at this point in time.
    So they fully understand that this will align and be the 
next step in our process. And I think that is why they are so 
excited about it, because they see this as that necessary next 
step, and they see it also as really maximizing their efforts 
and maximizing the state's resources, as we continue to move 
forward as well, so----
    Chairman Miller. Good.
    Mr. James [continuing]. As we look at the federal 
government, and ask what things that we can do in terms of this 
piece--and you have heard common assessments mentioned--that is 
a necessary by-product of this conversation, as we move 
forward, as well.
    Chairman Miller. I ask that question because--and Governor 
Hunt has been present at many of these. And, as I haven't been 
present, but I have been in the Congress while it happened over 
the years--we have gotten educational leaders together across 
this nation from time to time, with the president and others in 
different parties, at different times.
    And we have made these pronouncements about how we were 
going to achieve these goals, and we were going to have a 
world-class education system for every kid. And we are still--
now we are coming back--the next generation of that discussion. 
And I think what is clearly laid on the record this morning, 
and has been laid on the record with the Chicago meeting, and 
by a lot of the work that the various organizations involved in 
this effort, is that the current system is unacceptable.
    So, in a sense, we are placing a very big bet on the states 
to come up with the solution to that--to that problem, as it 
speaks to common standards, and what flows from that decision. 
And my sense is that we are placing the bet in the right place, 
to get this done.
    But, again, having gone through a lot of fanfare and--over 
the years, at all different levels--I am not saying just this--
I am talking about the national--all about these 
pronouncements. You know, my concern is that the Chicago 
meeting really mature into an effort of the willing.
    You know, states can make their own decisions. And better 
they make their decisions not to participate, than to drag the 
process down. But, at the end of the day, this is a big bet by 
this country, on those states, about getting standards that 
will really reap us the benefits that every parent and 
grandparent wants for their kids in school and, certainly, we 
want, as leaders, for our economy, and for those young people's 
future.
    Governor Hunt, I don't know if you want to comment on this, 
and maybe President Weingarten wants to comment on it.
    Mr. Hunt. I do, Mr. Chairman, if I may.
    These organizations are taking the lead in doing this for 
America. It has to be done, really. We could just keep going 
down, if we don't folks.
    Chairman Miller. I will be okay.
    Mr. Hunt. So I would hope that you all, here, would want to 
be kept posted on exactly how they plan to do it. I have got 
great confidence in them. But I would hope that they be talking 
with you regularly, as they will with all the states.
    It is going to be hard work. It is going to be tough. 
Everybody is going to want to do it. Everybody is going to be a 
part of it. Everybody wants to put their six standards in. By 
the time you get everybody is in, you have got nothing.
    Chairman Miller. I assume everybody went to Chicago with 
their eyes wide open. This isn't a question of first 
impression. This has been discussed throughout organizations.
    And President Weingarten, you mentioned in your testimony--
I think it is important--that the standards also have to 
develop within a system that supports the success of meeting 
and achieving those standards.
    Ms. Weingarten. When you looked at----
    Chairman Miller. I am going to ask you to pull the 
microphone.
    Ms. Weingarten. Is that better?
    Chairman Miller. It is hard to believe you can't be heard 
by anybody.
    Ms. Weingarten. That is probably the funniest thing I have 
heard.
    When you look at what happened in the aftermath of Goals 
2000, as well as the aftermath of the initial stages of NCLB, 
we have seen two things: One--and I think Dave Levin said it as 
well--that the states, in some ways, had a vested interest in 
making their assessments look good.
    And so that drove a lot of the development of standards in 
a different way--not that they wanted to dumb-down their 
standards. I don't think they wanted to do that for 1 minute. 
But it just--it--there was a lot of cross-currents, here.
    And so that is part of the reason I think you see this huge 
consensus on, ``Let us raise and lift standards, but do it in--
you know, not just a common way, but a real thoughtful, deep, 
clear, rich way.'' I may actually just put civics as part of 
those standards, as well; not simply math and science and 
English--but civics or social studies as well.
    But the key--I think the key trip-up we have had in the 
last 8 years, or the last 10 years, is that system--that 
interrelationship didn't exist either, in terms of knowledge 
being built in each other. And that is part of what--I think 
that is interesting that--that the two school-based people on 
the panel, without talking to each other first, both said the 
same thing, because the ``hows'' of how to do this, as well as 
the ``whats'' are so important.
    And that is why we have asked to have teachers involved in 
it, because if we can help figure out the ``hows'' as we are 
doing the ``whats,'' we think that this next iteration of 
school reform will be far more robust.
    Chairman Miller. Thank you.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    This is a very interesting subject. And I can see us going 
round and round at trying to resolve all this. But there are a 
couple of things that I would really like to have your input 
on.
    In your testimony, most of you discussed the importance of 
establishing a core set of academic standards across the 
states, not federal standards. What role do you see the federal 
government playing in, or after, the development of common 
standards?
    For example, would the federal government become the 
clearinghouse for the standards? Would the U.S. Department of 
Education be responsible for determining when the common 
standards would need to be updated? Would the department 
support the development of assessments based on the common 
standards?
    If the answer to any of these questions is, ``Yes,'' then 
how do we ensure that these common standards do not become 
federal standards, once the federal government gets involved?
    Mr. James. I would be happy to take that.
    First of all, I think, with respect to this, we need to 
underscore just what we have all said: This cannot be perceived 
as being federally imposed. I think that is key for the success 
of this effort.
    I think, from the federal government--the key ask, in terms 
of coming away from this meeting today--through your 
reauthorization process with ESEA, I think there is going to be 
key elements in that conversation, as we move forward, to look 
at how the federal government can support, and not hinder, this 
entire process, as we move forward.
    I think, as we look at state innovation, building capacity 
across states--and that is going to be key in each and every 
one of us--and I can tell you, from a state-agency standpoint, 
the things that we have to do under the current laws and things 
of that nature--it is very important that we have state 
capacity to be able to do those kinds of things.
    But I think, as we continue to move this conversation 
forward, also, we need to clearly understand that this is going 
to take significant professional development for our teachers. 
And those resources have to be there.
    And as we look toward these common assessments--and it has 
been mentioned here, today, with respect to the Race to the 
Top--I think that is going to be a key potential resource for 
us to look at, without it being perceived to be federally 
imposed. But I think that is what these kind of innovation 
funds should be used for, as we look toward these assessments.
    Then, really, as I think we look at the assessment 
conversation, we need to look much deeper and much broader than 
we ever have in the past, as to what the new generation of 
assessments is going to look like, because there are many, many 
things that we can do in the area of assessment, that we have 
not done before, that can really give us that snapshot view of 
where a youngster is in his or her daily preparation.
    And the teachers can take that, and they can put in the 
appropriate prescriptions, from that standpoint, and engage 
that student in a higher level of learning. And the assessment 
is the end product of that.
    So I see the federal government being paramount and 
instrumental in that process, as we move forward. And I think 
it can be done without the perception that the federal 
government is driving this train.
    Mr. Jones. From my perspective, that is key. And I think 
the federal government does, clearly, have a role. And I would 
hope that that would be primarily, in terms of incentivizing 
the states for creating the--the--the standards that--that we 
need, and providing funds for those states that--that do set 
high standards in rigor and quality. And so I think that is a 
very important role.
    I also think there is a role that needs to be defined that 
will help states share best practices. Because we will learn a 
lot as each state integrates standards into their curriculum. 
And I think there is a need for a greater degree of sharing in 
terms of what works; what doesn't work; what are the kinds of 
things that are best helping kids achieve.
    Mr. McKeon. Let me go on to the next question.
    I understand that the overall goal of developing a common 
academic standards across states is to improve the rigor of 
state standards, so that all students can learn to read and 
perform basic math skills, and the other--English and the other 
things that we would be looking at.
    I believe that Dr. James even made the point that, ``No 
state will see their academic standards, as a result, lowered, 
as a result of their participation in this common core 
initiative.''
    You know, as I think about that--and you have all--it is--I 
think you all alluded to that same thing--no state would see 
their standard lowered. And, then, the point was made this 
would be really hard work.
    It seems to me it would be easy. You just take all the 
states; see which has the highest standard. That would become 
the standard. And, then, all the states would have to accept 
the higher standard, because nobody would lower their 
standards. Is that correct?
    Mr. James. Well, I think that the standards conversation--
let me answer it this way--is much deeper, and needs to be much 
deeper in terms of this, as it evolves.
    I understand the premise from where you come, in terms of 
looking at what the perceived best standard is in the country 
right now, and ratcheting everybody up. But I also think we 
need to understand that the importance of this is the dialogue 
and the conversation, but, yet the understanding that this must 
move--we can't just put this off forever.
    Let me point to one clear example that I think you can hang 
your hat on, and that you can look to see what has happened 
with the Achieve work.
    There were a set of states that came together, because we 
felt we needed a common Algebra-2 examination across nine 
states. And at the beginning of that conversation, I would say 
to you that, probably, those that began that conversation, 
really didn't know if that was going to happen or not.
    But I will tell you: It happened because we set the 
expectation at the beginning--at the end of this dialogue--``We 
are not going to have lower standards. This is going to be high 
rigor, because we have to hang our hat on it. And, at the 
bottom line, at the end of the day, we are going to have a 
common Algebra-2 assessment.''
    And the first results of that examination--the results were 
not real good. But the bottom line is this--is that no state 
lost any level of rigor through that process, because that was 
the expectation. And we need to clearly understand that our 
kids need that level or rigor, if they are going to be 
competitive members of the global society.
    Mr. McKeon. Then the result would be the way I stated it. 
If you take that nobody is going to lower their standards, and 
you take the highest standard, and everybody just raises their 
standards to that--and we would have it done.
    Mr. James. Well, I--and if I could--and I don't want to hog 
the conversation here, but I think we need to understand that 
just raising it to the higher standard or the perceived 
standard that is in the United States right now--all of us are 
collectively saying that that is not high enough, either.
    We----
    Mr. McKeon. Okay.
    Mr. James. These need to be internationally benchmarked 
and----
    Mr. McKeon. But that would be a starting point.
    Mr. Levin. I think that the--I think the people who are 
experts on sort of where our individual states are currently 
would argue that, if--even our top state standards are 
inadequately preparing our kids.
    And I think the--there are many of us who would like to see 
the standards discussion shifted from basic skills, to this 
idea of life readiness in college and beyond, so that for--and 
I think Mr. Jones mentioned this, as well--for families who 
college and beyond is the goal--basic proficiency in reading 
and math is but one very small piece of that.
    And so the common standards that people, when they say, 
``Fewer, clearer and higher''--they are talking about 
fundamentally re-conceptualizing where the standards currently 
are, to prepare our kids in a totally different direction.
    Chairman Miller. We are going to continue this discussion, 
but we are going to let Mr. Polis ask questions now.
    Mr. Polis?
    Mr. Polis. Thank you so much, Mr. Chairman.
    In this rapidly globalizing economy, it is critical that we 
do a better job preparing kids for college and success, in an 
increasingly information-based economy.
    I appreciate all of your work in this regard. It is great 
to see such a diverse panel, from many different stakeholder 
and practitioner perspectives, coming to a common conclusion, 
with regard to the direction we need to move.
    My question is for Mr. Levin--first question.
    With regard to KIPP, KIPP has really focused, successfully 
so, on getting students ready for college, and to succeed in 
college. And my question is: In--do most state standards, in 
the states that you operate in, align with the college 
expectations, and what kids need to succeed in college in those 
states? And if they don't, how do you set the bar so that your 
students are prepared to succeed in college?
    Mr. Levin. Thank you. It is a great question.
    And I think just to clarify one thing about KIPP--so, we 
are very focused on kids going to, and completing college, but 
also recognizing that, for kids who don't complete college, 
meaningful career preparation is essential.
    And I think what we have found in most of our states--that 
the standards are a starting point. But that in order for our 
kids to be successful, we have to go outside of state 
standards, and look at what top-performing public, private and 
parochial schools--and what the universities are expecting.
    So, for most of our high schools, the way we are doing it 
is we start with the state standards, and then we take a look 
at what the freshman requirements are.
    So you will take--in North Carolina, where we have our 
first graduating class from Gaston College Prep, which is one--
in the top five public schools in the entire state--100 percent 
of our kids are going to college. And the high-school 
curriculum was designed by looking at the University of North 
Carolina curriculum, and working backwards.
    Mr. Polis. Let me ask: In the 19 states that you operate 
in, including Colorado, that I represent--we certainly 
appreciate your presence--but my question is: Do any of those 
states--would you point to any of those states as having 
rigorous college-ready standards and aligned assignments, or do 
you have to go through this kind of similar process that you 
just indicated, in pretty much every state that you are in?
    Mr. Levin. Yes. We--the--the process I just described, we 
are going through in every state, including states that have 
strong standards.
    Mr. Polis. Thank you.
    My next question is for Ms. Weingarten.
    You discussed how common standards would increase the 
ability of children to be successful in a very mobile society. 
And so my question is, in a very similar vein, and parallel 
sense: Do you feel that the lack of common standards places 
limits on the mobility of teachers in our country.
    Ms. Weingarten. Look, we, and I think, Dave Levin said it 
in his testimony as well--what ends up happening is that, all 
too often, teachers end up making it up every day, as they go 
along, because of the absence of common standards, the absence 
of curriculum--not in every place. I mean, we have--there are 
some states--we actually have a lot of learning these days that 
we can build on. It is not like starting from scratch, whether 
you look at the Arkansas standards, you look at the 
Massachusetts standards, you look at North Carolina.
    There is a body of knowledge now that we can learn from, 
which is different than 10 years ago. But----
    Mr. Polis. But do you see sort of potential--I mean, very 
mobile society, of course--teachers are no exception to that. 
Many might leave the profession when they move, rather than--I 
mean, does this have an opportunity to keep people in?
    Ms. Weingarten. It has a huge opportunity, as a starting 
point, because what then happens is that, just like a great--
take a great pianist. You can be using the same music between a 
great pianist, and a not-so-great pianist. What does a--what 
makes the difference?--a lot of the practice, a lot of the 
polishing of it, a lot of the work, work, work.
    And so when you start with common standards, and then you 
have some curricula work that is based upon that, then what 
happens--and we see this in countries that we compete with--
what teachers, then, do, is they polish their lesson. They 
think about it. They think about their kids being different, 
instead of, every single day, trying to figure out the content.
    So, to start with common rigorous standards--it will give 
teachers a huge ability to polish that work. And also, on the 
mobility question you are asking, it will be huge as well.
    Mr. Levin. And if I could add one thing, Congressman Polis, 
about the teacher-mobility point--and President Weingarten was 
right about this, in terms of the polishing--it also allows for 
sharing across states----
    Ms. Weingarten. That is right.
    Mr. Levin [continuing]. Which, right now, is virtually 
impossible.
    So an outstanding teacher in California--the idea of 
sharing it with an outstanding teacher in New York--the 
curriculums could be totally different, because the standards 
and assessments are totally different. And that is a real 
challenge.
    Mr. Polis. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Castle?
    Mr. Castle. Thank you, Mr. Chairman.
    Anybody who has been a governor in the last several decades 
looks upon Governor Hunt as being the great guru of education. 
We appreciate his being here today. And I would like to direct 
a question to him.
    From my own experience, and your experience, I am sure--and 
I was told in law school never to ask questions you don't know 
the answer to. And I don't know how you are going to answer 
this, but I will ask anyhow--it seems to me that the 
competition between the states is vitally important.
    And when we would have a low ranking in Delaware, when I 
was governor, be it infant mortality or an education issue or 
whatever, we would usually do everything in our power to 
overcome that and improve it in some way or another.
    It seems to me that when you have these different sets of 
standards and assessments, and you have states which seem to be 
doing well, when they are not really doing well, you don't have 
that so much. But when you have the NAEP tests come out, and 
they show that one state is not doing as well as another, all 
of a sudden, you galvanize the states into some sort of 
activity.
    And if we were to have common standards and assessments 
amongst the states, I assume that that would motivate the 
states to do even more, if they are not well ranked, with 
respect to the other states--and, as you say, for jobs and 
whatever it may be.
    Do you agree with that? Do you think that would be helpful, 
in terms of improving education in general; focusing the states 
and the legislatures and the--to do even more than they are 
doing now?
    Mr. Hunt. I think that would be immensely helpful, 
Congressman.
    You know, there is an awful lot of pressure. By the way, 
many of the states started these measurements on how students 
were performing well before No Child Left Behind. And we did it 
for a decade in North Carolina before it came along. We had a 
growth model--the kind you ought to have, in my opinion.
    But I think governors would welcome this. And they want to, 
obviously, be involved in it, along with the commissioners of 
education and so on. But we know we have got to raise these 
standards. We have got to have standards that work.
    Every day, I talk to business people who are moving plants 
to Asia. And, by the way, some back to Europe, now. I used to 
go out and just clean Europe, recruiting pharmaceutical plants 
to North Carolina. And many of your governors have done the 
same kinds of things.
    But we aren't winning now, folks. I mean, you know, we are 
still doing pretty good. But they are getting a lot more of the 
new stuff than we are. So I think this would be very helpful.
    And if I many add here, Mr. Chairman, and Congressman 
Castle, I would really urge--we are talking here about an 
approach that is a good approach--state-led efforts to have 
common standards of the kind we are talking about. And we need 
the assessments, too.
    But I want to urge this committee--in my opinion, this is 
the most important committee in the Congress today, and going 
forward--and I really mean that, now. We need to look at what 
it is going to take for America to compete and win. And it has 
been moving this way, by the way. It hadn't always been that 
way.
    But I would urge you all to have the folks come in--the 
CCSSO, the NGA, Achieve--whoever is going to be involved in 
this--and regularly share with you the progress they are 
making. What is their plan? Who is going to be involved in 
setting these standards? What is the timetable going to be; 
because it is going to be so easy for this to get off the 
track?
    People are going to be in there--everybody wants to be in 
it. Everybody wants to do it. And so I really hope you all will 
have that kind of involvement with them.
    I think the Congress needs to pay for some of this work--
certainly, assessments. I think that is an appropriate thing to 
do.
    And I want to say one more thing--and this is going to 
raise some hackles--but, folks, America has got to do this. 
Now, if the states--I hope the states' effort is going to work. 
It is the way to do it. It is the best way to do it. But if 
folks get in there, and they can't agree, and they won't work 
together, and we don't get it done as a state-led effort, I 
think we are going to have to do it as an American-government 
effort, because, if we don't, we are going to fail economically 
in this country.
    I just want to say that, Mr. Chairman. I really believe it 
is that important.
    Mr. Castle. Thank you, governor.
    Ms. Weingarten, the AFT has been pretty advanced in this, 
but I worry abut education opposition to all this, if it were 
to start to happen--other unions--education hierarchy, in 
general, or whatever--Dr. James, perhaps, could speak to this 
to.
    But what are your views with respect to that? In other 
words, I am concerned that educators are going to say, you 
know, ``We don't want, necessarily, comparisons with other 
states, or whatever it may be. And we don't want to be ranked 
lowly. And, therefore, we are opposed to this''--that kind of 
thing.
    Are we going to have that opposition, or do you think we 
will have cooperation among educators?
    Ms. Weingarten. Look, I certainly can't speak for every 
single teacher in the United States of America, or every single 
union in the United States of America. But in my travels around 
the country, people are yearning for working together, in a 
collaborative way, building capacity, so that we actually 
prepare kids in a way that is going to allow them to be 
prepared for life, and compete in this economy.
    And I am often asked this question. I was asked it after I 
gave my November speech, after I did the op-ed about standards, 
about the opposition within the ranks. I think if you involve 
teachers in a way that they want to be involved, they yearn to 
do this. They yearn to ask the questions that they yearn to be 
asked.
    And I think that you will be surprised at how much they 
sincerely want to make a difference in the lives of kids. And 
they dislike, as much as everyone on this panel, that education 
is different, depending on the zip code in which they live.
    Mr. Castle. Okay. I hope you are right.
    And I yield back, Mr. Chairman. Thank you.
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Governor Hunt, we all, up here, recognize that your 
influence on education goes well beyond North Carolina. It has 
reached into Michigan, my own state. And we, truly are 
grateful, because you have really made this a national issue. 
And this country is better off because of you. And I, 
personally, want to thank you for that.
    Back in 1994, I was the chairman of this subcommittee, as I 
am now, and I was chief sponsor of the Improving America's 
Schools Act, if you remember that. And Governor Riley was 
secretary of education, your southern neighbor at that time.
    And we played a lot with, you know, test standards and 
testing, and who would be in charge of the standards, who would 
be in charge of the testing. And we kept resolving that we 
would not make it a federal mandate that the states would do 
their own standards and test against those standards for their 
own tests.
    But we are moving towards an idea of trying to have some 
uniformity. How do we have that uniformity? Can you picture a 
modality--have a uniformity on standards--should be standards, 
but testing--standards and testing without some type of 
mandatory--and who would impose the mandate, Governor?
    Mr. Hunt. Well, Congressman, I believe that the Chief State 
School Officers and the governors and Achieve and others are on 
the right track. I think this is doable, by them coming 
together, and forming a group.
    And I don't know, Commissioner James, how far along you all 
are, and exactly how you are going to do this--maybe you could 
talk a little bit more about that--but people have now said, 
``We want to do it.'' That is a big step--have 41 states, 
including some territories, come together--say, ``We want to do 
this.'' They would never have done that 5 years ago, would 
they, Commissioner?
    So that is a big step. But, when you get into it and start 
really doing it, that is when it gets tricky. And a lot of 
people are going to pull back--``You didn't let me do it my 
way,'' and all of that. That is why I hope you all will ask for 
regular information and reporting, and keep the pressure on the 
states to do it.
    But I think, maybe, Commissioner James could share how they 
think they are going to do it, as of now, though I know it is 
going to come together.
    Mr. Kildee. If you could, with the idea in mind of, ``How 
do you avoid the federal mandate, and still get uniformity?'' 
If you could address that.
    Mr. James. Well, I think, Congressman, that, as the 
governor indicated, having 41 states, now come together, and at 
least express some level of interest in this dialogue, is a 
monumental move in this country.
    I would say to you--I have been in this business, now, at 
the end of this year, 36 years, in a variety of different 
capacities. And I will say to you in all candor--and members of 
this committee--I have never seen or witnessed the level of 
excitement and energy around education in this country, that we 
have right now.
    We have a wonderful opportunity and window of time, here. 
We must seize that moment and continue to move forward.
    How we do that without a federal mandate, I think is that, 
as we collectively talk about this across the country, 
involving teachers and involving the stakeholders and everyone 
that is engaged here--we all have to keep at the forefront of 
our decision-making process, the kids of this country--what 
they need to be successful, to bring home a livable and 
competitive wage in today's marketplace, clearly understanding 
that if they are going to do that, in contrast to what their 
parents were able to do with a high-school diploma or maybe 1 
or 2 years of college--they are going to have to have the skill 
sets that we are talking about in English-language arts and 
math, and all subject areas, to be competitive and bring home 
that livable wage.
    The high-school diploma, we all clearly understand and 
know, will not provide youngsters, in this world and this 
global marketplace, a livable and competitive wage.
    So, as we talk about this collectively among the various 
groups, at the forefront have to be the students. We have to 
understand that, for the betterment of their lives, for the 
betterment of this country--most importantly--and if we are 
going to continue to be the world power that we expect and want 
to be, this is something we have got to continue to do with the 
international benchmarking. If not, we are going to miss this 
wonderful opportunity. And I am not sure we will have it again 
in the very near future.
    The time is right for this, in my opinion. And I think you 
see that demonstrated and echoed by the number of states that 
have come together. And, again, yes, there is going to be some 
knock-down, drag-outs. There is going to be dialogue and 
conversation. But if we can keep the forefront at the kids and 
what we need to do in the best interest of this country, that 
will drive the conversation. And that is what we have to be 
about, in my opinion.
    Mr. Kildee. Well, if you can keep us informed of the 
progress you are making to get this uniformity, but also have 
it really take effect--because there has to be some type of 
agency that, at least, gives them a scarlet letter if they 
don't do it, right?
    Mr. James. Understand.
    Mr. Kildee. Governor?
    Mr. Hunt. Congressman Kildee, I think the agency to stay in 
touch, primarily--obviously, we want all of you and your staffs 
to be in touch with all this, regularly get information about 
how it is going, what is happening--you know, ``When are you 
going to get it done?''
    But secretary of education would be the person to stay in 
touch with it on a regular basis, give help to it, encourage 
it, see those people who are going to be doing it, on a regular 
basis.
    And there is going to be some money involved.
    Now, it could be that Gates would fund it. I don't know. 
They are doing great things in America. But it takes some money 
to develop new standards. It is sure going to take some money 
to do new assessments. And we have got to have those, too.
    So I would urge you all to figure out what it is going to 
take to really make it work, because this is the best way to do 
it.
    Mr. Kildee. And you help us figure it out. Okay. Thank you. 
Thank you, Governor.
    Thank you, Commissioner.
    Chairman Miller. Mr. Souder?
    Mr. Souder. Well, let me openly acknowledge I don't fit 
with these times. Somewhat, I feel like I woke up in the 
morning, and missed the big meeting where the federal 
government was declared God.
    Mr. Chairman, you said earlier that----
    Chairman Miller. Change.
    Mr. Souder [continuing]. We are placing a very big bet in 
giving this to the states. Who is the ``we''? We don't have the 
power to give it to the states.
    There is no ``we'' here. Education starts with the parents 
and the local, moves up to the state. And the federal 
government is a minor player. We are not supposed to be driving 
the states. Nobody is banning the states from cooperating right 
now. Nobody is saying you can't get together and do this.
    It is kind of cute to say, ``Well, you should use your 
federal funds to, basically, drive this, drive that, do that--
because those of us who were, quite frankly, maybe a little 
overly paranoid at the time about national tests, when the 
governors came in, led by Mr. Hunt--and Governor Hunt, who has 
been a leader in this for many years and said, ``Oh, we are 
just going to work the states together. This is going to be 
voluntary. The federal government is not going to mandate 
anything.'' This was governors joining together.
    Now, he freely admits that--and I appreciate your honesty, 
saying that, ``Look, there is no way to make this happen, 
unless the federal government makes it happen''--those of us 
who worried about this test said it is going to lead to a 
national curriculum, and that it is going to lead to 
assessments.
    It is going to lead to how teachers are supposed to do 
instruction. It is going to lead to how teachers are prepared. 
It is going to lead to a federal standard on how teachers are 
going to be professionally developed. And everything was going 
to be run out of the all-knowing, all-wise, as if there is 
agreement in education--by the way, I don't see the NEA here 
today.
    I suspect they differ a little. I am not a big defender of 
the NEA. They spent tens of thousands of dollars to try to 
knock me from my seat in Congress. At the same time, let us 
just suggest that there are differences.
    What I hear in my district is constant complaints from the 
teachers about the standards, about too much rigidity--about 
complaints from the federal government. And, quite frankly, I 
am kind of mixed on that.
    I absolutely believe in standards. This was my first choice 
as a committee, because I believe--may have been a mistake--
that I believe education is the key to our country recovering. 
But I believe diversity is the key. I believe that we don't 
have, and know, every answer.
    And there isn't a common consensus. Yes, some of the things 
that were said here--for example, ``Textbook developers try to 
cover the standards by creating books that have a little bit of 
everything, and a lot of nothing.'' Well, that was predictable.
    As we went to federal standards, they, all of a sudden, had 
to wash down their books. But we partly caused that in the way 
we were going--to what will be on the state assessment--end up 
driving instruction.
    If you are teaching kids what they need to know, then, you 
don't have to worry about what is going to be on the test. 
Professional development--too often about fads--yes, that has 
gotten worse, not better, under national testing. Now, by 
having more federal control, we are supposed to alleviate the 
very things we warned that were going to happen when we went 
this direction.
    We have inconsistencies in our schools. And, particularly, 
I believe the federal government has a role for special-needs 
kids and for minority kids, where they don't have the assets in 
their community to fund those schools. And we have an 
obligation to help those particular schools.
    But when we get beyond and try to tell every school 
district in America, and every state in America that, somehow, 
there is one plan--that, ``If we just did this plan, we would 
fix America''--and with all due respect, Governor Hunt--and I 
know you have been an advocate for this, for years, and for the 
pharmaceutical industry--to suggest that our education system 
is the reason India and China, who steal our patents, who have 
totally different guidelines on pharmaceuticals, has anything 
to do with our education--I am struggling in a manufacturing 
district with Eli Lilly in our state, to try to meet the 
standards and get people in who do that--we are not losing the 
pharmaceutical industry to India and China because of our 
education.
    And in Europe, they have different patent rules. There is a 
whole complicated thing here. And to try to say, ``Oh, if we 
just had a national test, the pharmaceutical industry wouldn't 
go,'' I would suggest the reverse will occur; that we will have 
a national test--by the way, how do the home-schoolers fit into 
this? How do Christian schools fit into this? How do colleges 
fit into this? Do we need a national tests for college?
    Are we going to have--how does vocational education fit in 
this? But when you start to look at the complexity and the 
diversity--letting 1,000 bloom, with standards developed in the 
communities and the states, is far better, in my opinion, than 
a straightjacket, which will be politically manipulated--the 
longer and more power--is concentrated in one place--every 
group that has a special interest will start to say, ``But we 
are not covering this. This ought to be in the test. We are not 
focusing on this as much.''
    And we only have on alternative that can be manipulated by 
the political forces of this country--we will not advance 
education. We will advance whatever the political agenda is of 
those who are in power. And I have tried to keep my blood 
pressure down during this hearing. I know you are all committed 
to education. We don't differ on our commitment to education. 
But we surely disagree on how best to achieve it.
    Chairman Miller. Where are we? No.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you.
    Chairman Miller. Just let me say, if I might just before 
the gentlewoman begins--to say that NEA is, in fact, a member 
of this coalition.
    Mrs. McCarthy. Thank you, Mr. Chairman. And I appreciate 
it.
    And I thank the members, the panel, for putting their ideas 
forth.
    One of the things that was not mentioned, and which I 
happened to think is one of the most, probably, extremely 
important things--is that we are not going to be raising the 
scores of the children in the under-served areas, unless we 
make sure that those kids are ready when they come to school.
    How is the community going to be involved in this?
    Right now, during this recession we are going through, we 
are seeing even worse issues going into school. We are seeing, 
unfortunately, child abuse going on more frequently. Kids are 
not coming into school and getting the meals that they need.
    So before we even think about trying to bring the scores up 
into these under-served schools--and some of my schools 
certainly have come up a little bit--but there are certain 
children that are not performing, mainly because, to be very 
honest with you, they have nothing. And that is a problem. And 
until we solve that problem, no matter what we do here, there 
is a certain percentage of our students in this country that 
will not excel, even though they have the possibilities.
    But with that being said--last year, in the reauthorization 
of No Child Left Behind, I supported language in the last 
Congress discussion draft that would have allowed us to better 
compare different state standards. The bill would have directed 
the National Assessment of Educational Progress and the 
National Academy of Sciences to study how best to compare 
standards across states, and directs the secretary to develop a 
common scale, using the results of the NAS study.
    This would help us develop sound policy based on the 
results of a non-partisan think-tank.
    To the panel: Assuming that you think it is a good idea, 
how do you propose that we come up with a common academic 
standard?
    And that is to the panel.
    Mr. James. I will take it.
    I mean, in terms of how we come up with a common academic 
standards. And I think, clearly, we need to--I will go back to 
what I said earlier. We need to clearly understand that our 
kids are going to need skill sets to be competitive in this 
global marketplace.
    So as we look at what kids are going to have to know and be 
able to do, to be successful--as we look at what most of us in 
the states that have been involved with Achieve--looking at 
English-language arts and math, specifically, initially--and 
looking at those areas in terms of what kids' skill sets needed 
to be, whether they were going to the world of work, or whether 
they were going to the first year of college--we need to 
clearly understand that those skill sets, now, are one in the 
same.
    As they look at the manuals in the workforce--as they look 
at what they have to read, and how they need to be able to 
compute--those skill sets that they need, going into that first 
year of work, are the same set of skill sets that they need to 
be able to go into that freshman year of college.
    We need to make sure--I want to go back to one other key 
point that I think you hit on very succinctly. In our state, we 
have done this over the last 6-plus years--investment in pre-K 
education, because--and we have found, in that last 6 years, 
that that investment--now we are putting in $111 million a year 
from our state, into pre-K education.
    We have seen that investment pay great dividends, as those 
youngsters that have gone through pre-K--that did not have the 
support systems, and had the kind of needs that you are 
describing--are now, at the third and fourth-grade level, 
getting to the level of proficiency. And we had a difficult 
examination.
    It aligns very well with NAEP. And that was one of the 
things that we made sure that we did when we went through that 
process.
    Pre-K education, giving the kind of opportunity--the 
support systems that are needed to provide those youngsters 
with the kinds of things that you were talking about, I think, 
is essential across this country.
    We need to make sure that we clearly understand that is the 
only way our kids are going to get to the level that we need to 
get to. Thank you.
    Chairman Miller [continuing]. Smart.
    I don't know--Mr. Levin, did you want to respond, quickly?
    Mr. Levin. Do you want to go first?
    Ms. Weingarten. Let me just, to the Congresswoman----
    Chairman Miller. Quickly, because we have got a vote going 
on, here, so----
    Ms. Weingarten. Okay.
    Let me just say that one of the things we are trying to 
push at, as well, is we agree with the president and the 
Congress about early-childhood programs, and trying to make 
sure that they actually get embedded into school districts. But 
there is a notion of community, or schools or wraparound 
services, as a way of trying to level the playing field for 
kids are really disadvantaged or underserved.
    Chairman Miller. Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman. I will try and be 
brief.
    On--and not having been here for the testimony--one of the 
things that really bothered me as--with the NAEP test and the--
all the states' tests--and we had a hearing on this--it showed 
that, as I recall, the state that had accomplished the most, 
according to their state, and had the most--the average yearly 
progress was the highest--turned out, on the NAEP test, to be 
the lowest.
    And I think that shows that the diversity in how the states 
were ranking themselves--and on the NAEP test--so I think that 
shows that it really is something that we need to do to make 
sure that that doesn't happen.
    The other thing is that we ranked so low on the 
international side. And I think that--so all states really have 
a lot to do, I think, in these things.
    One of the--and I have also had professionals that have 
come in and talked to me about textbooks. And I think they are 
very upset with the quality of textbooks. They are not updated. 
They are factually incorrect in so many instances. Is this part 
of something that should be done on a federal level, to look at 
those textbooks, and make sure--I think most of us agree we 
really don't want to have a federal standard.
    But we want the states to have something that will--I mean 
they will match each other--would that include the textbooks?
    Ms. Weingarten. One of the good ramifications or 
consequences of having a set of voluntary common standards is 
that, attached to that, you would have a federal clearinghouse, 
for example, of recommended textbooks that are aligned with it, 
or recommended professional development that is aligned with 
it.
    So it is not a mandate. But what would then happen is that 
there would be a lot of incentives, both in the marketplace, as 
well as in our field, to actually align materials with that 
common set of standards.
    Mrs. Biggert. One of the problems right now is that we have 
fewer and fewer textbook companies, too. Do you think that 
would increase competition for that?
    Mr. James. I think it, potentially, could.
    I think the issue, though--as we look at the countries that 
are leading in performance, and what they are doing over time, 
and what they have done over time--you look at their textbooks, 
and you look at our textbooks--and, Chairman Miller, to your 
comment earlier about being ``a mile wide in''--you know, in 
all these kinds of things that we try to cover in this 
country--we need to clean--I think you guys all understand 
this--that textbooks--the adoption of those--they are really 
driven by the largest states in this country. And everybody 
else is buying them----
    Chairman Miller. We are going to interrupt this part of it, 
because we are going to come back to textbooks in this context.
    But, Mr. Ehlers, just have a chance to ask a question 
before, because we are running out of time on the clock on the 
floor.
    Mr. Ehlers. Thank you, Mr. Chairman, and I would like to--
--
    Chairman Miller. Sorry, Judy. I just want to give everybody 
a chance.
    Mr. Ehlers. I would like to change the tone just a little 
bit, particularly----
    Chairman Miller. Quickly.
    Mr. Ehlers [continuing]. Particularly, since my Republican 
colleagues seem to say that the federal government shouldn't 
have anything to say; I think we should, in certain areas.
    And, in fact, Senator Dodd and I have put in a bill to 
establish voluntary national standards for math and science. I 
happen to be a scientist. And, of course, I have a degree in 
math.
    The way we are doing it now makes no sense. Particularly, 
we aren't recognizing the mobile society we have. And so a 
child may learn about fractions in one semester. If his parents 
move at Christmastime to another school that has reversed 
order, he may get a double does of fractions, and may not learn 
anything about percentages. This makes no sense.
    If there is any area where you need agreement on national 
standards--and it is because of sequence, not because of 
content--certainly in math and science--we should adopt 
standard sequences of how materials are going to be taught, and 
at which grade level.
    The content is not an issue to me, and I don't think, to 
anyone. But if you don't teach things in the right sequence, 
you are not going to teach the students well, and you are going 
to have a mess.
    So I would hope whatever we come up with--in fact, I would 
like to see Senator Dodd's bill and my bill passed. That would 
at least be a start. But----
    Chairman Miller. So ordered. We are going to interrupt 
here. We have got to go to the floor.
    Thank you very much. This has been a wonderful opening 
discussion between the Congress and your collaborative 
organizations, here, on this topic. I think we will take the 
suggestion of Governor Hunt. We will ask you to come 
periodically, and give us a roundtable discussion; maybe not a 
formal hearing, but an update on how you think best delivered 
to us, to keep the members informed.
    As I said, I think we are placing a very big bet. I also 
think we are placing what could be a very good bet on this 
effort, from here.
    So thank you so much for your time, your testimony and your 
expertise.
    [Additional submissions of Mr. Miller follow:]

 Prepared Statement of Dr. Jerry D. Weast, Superintendent of Schools, 
              Montgomery County (Maryland) Public Schools

    We all know the old adage, ``If you don't know where you are going, 
then any road will take you there.'' It's an apropos summary of our 
nation's sojourn with the issue of national standards. We all keep 
hoping to get ``there,'' and by ``there'' I mean a nation where all of 
our children are ready for college when they graduate from high school. 
Alas, we are nowhere near ``there'' as a country. In fact, it appears 
that we continue to slip further and further behind our industrialized 
rivals. We rank near the bottom in math and science education among the 
top 30 industrialized nations according to the Organisation for 
Economic Cooperation and Development.
    If we are going to get ``there'' as a nation, then we must get 
serious about setting voluntary national standards that are rigorous in 
nature and, if met, will show that a child is ready for college level 
work and the 21st century workforce. Our national leaders, and state 
leaders for that matter, have been loath to ever get truly serious 
about setting national academic standards. Does it make any sense that 
our country has a standard for the size of fire hoses but not for the 
algebraic concepts an 8th grader should know before entering high 
school?
    It's not as if our national leaders don't want to improve 
educational outcomes for all students. They do, and I know that 
everyone wants to find the silver bullet that will fix all that ails 
our education system. The reality is that there is no one silver bullet 
and we as a nation must come to understand that it will take time, a 
steady course and a clear sense of where we need to go to strengthen 
our nation's schools. The closest thing there is to a silver bullet is 
the concept of putting an excellent, well-prepared teacher in every 
classroom. And in Montgomery County, Maryland, we have spent the last 
10 years investing in building the capacity of our staff to deliver 
high quality instruction based on a challenging curriculum aligned with 
high standards. We're seeing results because we have both an 
exceptionally trained workforce and a strong, standards-based 
curriculum. A quality workforce can only be as good as the material 
they have to deliver. If a school system is not focused on college 
readiness standards, then it is not likely that its students will reach 
the level of success we need to keep our nation strong.
    The ``No Child Left Behind Act'' was a valiant effort to attempt to 
force change and the idea of accountability on the many states and 
school districts who had no history with either concept. It was, and 
is, appropriate for school leaders to disaggregate data by subgroups so 
that they can assess the performance of every child and every school in 
order to measure their progress. But that's where it breaks down--
measure their progress compared to what? With no national standards of 
what kids should know and be able to do by grade level or content area, 
states were left to their own devices to come up with their own 
standards. Because they were afraid of federal sanctions for not making 
adequate yearly progress, some states intentionally set low bars so 
that the vast majority of their children could clear them and ``pass.'' 
What a disservice we have done to our nation's youth in allowing low 
expectations to drive the agenda in these states. We all know the 
example of the state of Mississippi where a vast majority of students 
can show progress and be deemed proficient at the state level but when 
you look at their National Assessment of Educational Progress scores 
you find them at the bottom of the pack.
    We cannot continue to fail our children. We are in a national 
education crisis with barely one-quarter of college students complete a 
bachelor's degree within six years. We must act and act quickly, lest 
we lose another generation of students to mediocrity.
    For those who question the need or wisdom of national standards, I 
offer a few reasons and examples of why we must set aside such thinking 
and get on with the important of business of making sure our children 
are college ready. I ask you to think back to when President John F. 
Kennedy told our nation that we were going to the moon. We didn't know 
how to go about doing that, but the president set a clear target about 
where he wanted to go and then it was up to the scientists and 
engineers it figure out how to get there. In essence, landing on the 
moon became the standard and it was the job of the scientists to align 
everything to meet that standard. And lo and behold, on July 20, 1969, 
we achieved that standard with the first moon landing. It shows what 
can be done when you lay out a clear target and then align your systems 
to reach it.
    Fast forward 30 years to Montgomery County, Maryland. When I 
arrived in 1999, Montgomery County Public Schools was a high performing 
school district, but its demographics were changing rapidly and there 
was great concern that its exalted reputation might deteriorate with an 
influx of poor and minority students. We set out to prove that academic 
quality did not have to stagnate just because of a changing landscape. 
We believe all children can succeed and succeed at high levels so we 
set out to build a school system to show just that. What was one of the 
first things we did? We set a high rigorous standard of what our 
children needed to achieve. We aligned our curriculum with the College 
Board's Advanced Placement program because we knew it was rigorous and 
had a proven track record of preparing children for college level work. 
It's probably the closest thing we have to a de facto national standard 
for college readiness in America today. It is critical that as a 
nation, we choose standards at least as rigorous as the College Board's 
AP standards or those of the International Baccalaureate programme. I 
think the only thing more harmful for our students than no standards, 
would be low standards. Low standards create a mirage of rigor for 
those who need to improve and penalize those already working at high 
levels.
    We picked a clear target. We call it our ``North Star.'' We then 
began to systematically align our work and our structures to reach the 
target. We backmapped our curriculum from AP English and Calculus all 
the way down to pre-school so that we would know what our children 
needed to achieve at each level to keep them on the pathway to college 
readiness. We've been at this so steadily that we now have the research 
to show how certain data points at each level support and reinforce the 
requirements at other levels. We call it the ``Seven Keys to College 
Readiness'' and we are now teaching all of our parents about these keys 
so that they can monitor their own child's progress against these 
standards. The keys start with reading simple text in kindergarten and 
progress through AP/IB in high school to reach college readiness. Each 
of the Seven Keys builds upon the previous key. (Attachment A). Our 
college graduation data provides remarkable proof that show that if you 
achieve the keys, you can be successful. For example, for graduates in 
the class of 2001 who earned an 1100 on the SAT or a 24 on the ACT, 77 
percent of them earned a bachelor's degree. For African American and 
Latino students, 68 percent and 67 percent earned bachelor's degree.
    After 10 years of hard work, I'm proud of the progress we have 
made. I dare say that we may be one of only a few systems who have 
switched from majority white to majority minority and have still seen 
student performance rise each and every year. We see extraordinary 
academic achievement in places where others would not expect it. We do 
not have a single Title I school at risk for sanctions under NCLB. All 
are showing remarkable growth in achievement and none more so than 
Highland Elementary, which has a poverty rate of more than 80 percent 
and is nearly 75 percent Latino. This is a school that was on the verge 
of state takeover. However, Principal Ray Myrtle has turned it into a 
``Blue Ribbon'' winner in Maryland and, perhaps, a national ``Blue 
Ribbon'' winner this fall. At Highland, nearly 80 percent of their 5th 
graders are now scoring in the advanced category on state reading 
tests. Mr. Myrtle and his team have shown what a difference it makes to 
have high expectations for all students and to have a rigorous 
curriculum pegged to high standards to produce a college readiness 
outcome.
    We have seen steady progress in the number of students taking and 
succeeding in AP courses. In fact, African American and Latino students 
in the Class of 2008 outscored the national average for ALL students, 
including Whites and Asian Americans. (Attachment B) I am both proud 
and troubled to say that we are second only to New York City in the 
number of exams taken by African American students who earned a 3 or 
better last year even though New York City has 9 times more African 
American students than we do. Our African American students passed 
nearly 1,200 tests while New York had a little more than 1,300 passing 
tests. I'm proud that we are outdistancing the country, but I am 
distressed that we have such status with only about 1,200 passing 
tests. One could say that we are a tall tree in a short forest.
    It's a wake up call for every state and this nation that we had 
better get serious about increasing the performance of all students 
regardless of their race, ethnicity, language, socioeconomic status or 
disability. If we want to truly leave no child behind, then we'd better 
show them where they need to go and that is college. The only way we 
can show them the pathway is if we create it. We can do that by setting 
some common, rigorous academic standards that everyone can aim for and 
that will, if followed with fidelity, lead to a better prepared 
workforce to keep our nation strong and competitive.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

             [From the Washington Post, December, 18, 2008]

    County Stays Strong in AP Scores Despite Increased Participation

            By Daniel de Vise, Washington Post Staff Writer

    Montgomery County high schools remain among the nation's elite in 
college-level Advanced Placement testing, even after dramatically 
expanding the number of disadvantaged students involved in the program, 
according to a review of score reports over several years.
    The number of students taking AP exams nearly tripled between 2000 
and 2008, from 4,626 to 13,568, according to annual reports published 
by the school system. School Superintendent Jerry D. Weast released 
2008 data last week during a visit to Bethesda-Chevy Chase High School.
    The number of disadvantaged students taking AP tests has increased 
at a greater rate, from 160 students in the 1999-2000 academic year to 
1,112 in 2007-08. Disadvantaged students, or those who qualify for 
federally subsidized meals because of low family income, make up 8 
percent of AP test-takers in the county, up from 3 percent at the start 
of the decade.
    ``Race should not be a predictor,'' Weast said, addressing students 
and staff at Bethesda-Chevy Chase. ``Socioeconomics should not be a 
predictor. And the teachers of Montgomery County are proving that.''
    The larger presence of low-income students in the college-level 
testing program reflects two factors, school officials said: increased 
poverty in the community and the recruitment of disadvantaged students 
into advanced study. Under Weast, the school system has abandoned 
barriers to AP study that kept the program small in previous decades, 
reflecting an expansive philosophy toward college-level testing across 
the region. AP, International Baccalaureate and other programs expose 
high school students to college-level work. Students who score well on 
the end-of-course tests can qualify for college credit.
    By several measures, Montgomery's high schools are among the most 
successful in the nation at AP study. Every county high school with a 
graduating class last spring earned a spot on the Challenge Index, a 
measure of participation in college-level testing created by Washington 
Post staff writer Jay Mathews. That means every county high school, 
including high-poverty Albert Einstein and Wheaton, ranked among the 
top 5 to 10 percent of high schools nationwide for AP and IB testing.
    Six county high schools ranked among the top 100 on the index, 
which measures college-level tests taken per graduating senior: Richard 
Montgomery (32), Wootton (60), Bethesda-Chevy Chase (64), Walt Whitman 
(69), Walter Johnson (76) and Winston Churchill (98). No school system 
had more schools in the top echelon, Montgomery officials said. Three 
Montgomery schools placed on a competing list of 100 top schools 
published recently by U.S. News & World Report, based partly on AP 
performance, and again the county was unsurpassed.
    Rapid expansion of AP testing has brought some decline in pass 
rates, a correlation common in AP and SAT testing. The percentage of 
county AP tests earning a score of 3, the minimum to earn college 
credit, or higher on the 5-point scale has dropped from about 80 
percent to the low 70s in the past decade. Just more than half of 
disadvantaged students who took AP tests this year passed, compared 
with 57 percent five years ago.
    But the yield of passed tests has grown tremendously. The number of 
successful AP tests taken countywide reached 18,306 this year, up from 
14,508 in 2004.
    Weast has drawn attention to the participation of poor and minority 
students in AP study by fostering what he terms a healthy competition 
among school systems, particularly toward the achievement of African 
American students.
    African Americans in Montgomery high schools produced 1,152 passing 
AP tests this year, up from 859 in 2006 and 725 in 2004. A Washington 
Post analysis two years ago found that only one school system, the 
million-student New York public school system, generated more passing 
AP tests from black students than Montgomery, a system of 139,000 
students.
    African American students passed 1,313 AP tests in New York schools 
this year, a city schools spokesman said.
                                 ______
                                 
    [The publication, ``Ensuring U.S. Students Receive World 
Class Education,'' by the National Governors Association, may 
be accessed at the following Internet address:]

           http://www.nga.org/files/pdf/0812benchmarking.pdf

    [Whereupon, at 11:32 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
